Copies of this report may be obtained
from the U.S. Department of Labor,
Office of Inspector General,
Room S-5030,
200 Constitution Avenue N.W.,
Washington, D.C. 20210.
Semiannual
Report of the                       0
InspectorGeneral
U.S. Department of Labor
Office of Inspector General
J. Brian Hyland
Inspector General

April 1, 1983- September 30, 1983
                    TABLE OF CONTENTS
                                                                      Page
PREFACE ............................................                    iii
PART I--SIGNIFICANT PROBLEMS, ABUSES OR
  DEFICIENCIES, AND RECOMMENDATIONS FOR
  CORRECTIVE ACTION .............................                        1
   Employment          and Training Administration     ............      1
   Employment          Standards Administration    ..............       21
  Departmental Management .........................                     45
PART II--SUMMARY   OF OIG ACTIVITIES .............                      57
   Office of Resource Management and Legislative
     Assessment .....................................                   57
   Office of Investigations ............................                67
   Office of Audit ....................................                 81
  Office of Organized Crime and Racketeering ........                  103
PART Ill--COOPERATIVE     EFFORTS ...................                  119
PART IV--MONEY                OWED TO THE DEPARTMENT ......            123
APPENDIX ..........................................                    127
   Selected Statistics ..................................              129
   Audit Resolution Activity ...........................               130
   Status of Unresolved Audits ........................                134
   Summary of Audit Reports Issued ...................                 136
   List of Audit Reports Issued ........................               137




                                               I
                         PREFACE



This is the tenth semiannual report of the Department of La-
bor's Office of Inspector General--and   my first as the Depart-
ment's Inspector General. Since I served as the Deputy In-
spector General from March 23, 1983,until my confirmation on
August 4, 1983, many of the activities described in this report
reflect my own sense of priorities and future direction for this
Office. There are two priorities    I want to highlight in this
message:

• our increasing emphasis on preventing      fraud and misman-
  agement in Labor's programs, and
• our efforts to ensure that the OIG is, itself, a model of effi-
  ciency and effectiveness.

Prevention
This Office has traditionally    given primary attention to de-
tecting serious cases of fraud and identifying and recovering
improperly spent funds. We are, however, increasingly giving
attention to analyzing systemic vulnerabilities      and working
with program management to reduce the likelihood of future
integrity or efficiency problems. Several different prevention-
related activities are discussed in detail in this report.

 First, we have worked extensively with ESAand OWCP to help
 correct longstanding and complex problems in the FECA pro-
 gram which the OIG has identified through past audit and in-
 vestigative work. I am pleased to report that progress has
 been made in the development of a long overdue legislative
 reform proposal for FECA, in the drafting of a number of criti-
 cal regulations, in efforts to involve more directly FECA em-
ploying agencies in program administration      and cost reduc-
 tion, and in the improvement of control systems for assessing

                               iii
and paying claims. While continued progress is necessary, I
am encouraged by the climate fostered within ESA to take
these issues seriously and to effect real change.
Second, we have continued our cooperative effort with ETA to
ensure that the JTPA program is implemented from a sound fi-
nancial and program oversight base. A major audit of all state
systems was conducted during this reporting period. Not only
will the results be of immediate value to ETA and the states,
but should also help encourage program integrity and effi-
ciency at all levels of the JTPA system.
Third, we will continue to give priority to the analysis and de-
velopment     of legislative recommendations.    Not all of the
problems identified by our audits and investigations can be
corrected by administrative means. In this report, we discuss
several legislative proposals that we believe are critical--
either to directly improve the capacity of Labor programs to
manage more effectively or to allow us to fully carry out our
mandate. We urge Congressional action on the Department's
FECA reform proposal, and continue to support a statutory re-
quirement for all states to adopt wage reporting systems to
enhance management of the UI program. With respect to our
own operations, we believe that Congressional        approval of
law enforcement authority is essential. Also, we strongly advo-
cate legislation to exclude OIGs from requirements        of the
Paperwork Reduction Act. This will help ensure that our ability
to undertake audit and investigative work is not improperly
constrained and that IG independence,      so crucial to the IG
concept and continued effectiveness, is preserved.

Internal OIG Operations
I firmly believe that the Office of Inspector General should
constantly strive to improve its own efficiency and effective-
ness. We have under way a variety of initiatives, such as the
collocation of OIG field offices, improved management infor-
mation systems, self-inspection,    and training. Of particular
note in this regard is our recent acquisition and use of porta-
ble microcomputers.     This technology   has already improved
the efficiency of data collection and analysis in several audits
and investigations.


                            --iv m
These efforts to improve our work serve to build upon what I
have found to be a solid framework of competent and dedi-
cated employees and a strong record of accomplishment.        I
want to express my appreciation to Secretary Donovan and
other departmental   officials for their support and coopera-
tion, without which the accomplishments described in this re-
port would be far less meaningful.




J. BRIAN HYLAND
Inspector General




                            --V--
                          PART I

   SIGNIFICANT PROBLEMS, ABUSES
        OR DEFICIENCIES, AND
      RECOMMENDATIONS      FOR
         CORRECTIVE ACTION



Employment and Training
  Administration
The Employment      and Training Administration    administers
programs to enhance the employment          opportunities    of
Americans and provide temporary      benefits to the unem-
ployed. This mission is accomplished    through three major
programs: the Job Training Partnership Act (JTPA) program,
which replaced the Comprehensive     Employment and Train-
ing Act (CETA) program on October 1, 1983; the Employment
Service (ES); and the Unemployment   Insurance program.

The Federal funds involved in ETA programs are considerable
and comprise the majority of the Department's expenditures.
For Fiscal Year 1983, ETA's budget was $36.8 billion. Of that
amount, $4.0 billion was for the CETA and JTPA programs and
$31.8 billion was for the Unemployment        Insurance Trust
Fund. ETA programs are characterized by a large decentral-
ized program delivery system except for those programs, like
the Job Corps, that are administered nationally. The Employ-
ment Service and Unemployment        Insurance programs are
operated by employment     security agencies in the 50 states,
the District of Columbia, Puerto Rico and the Virgin Islands.
During Fiscal Year 1983, the State Employment         Security
Agencies employed approximately 100,000 people. The CETA
program was operated by more than 470 different local gov-
ernments, known as prime sponsors; under JTPA, the pri-
mary program agents are 57 states and entities. The states
and entities have subgranted with approximately    550 local
areas known as service delivery areas, who plan and operate
programs.
During this reporting    period, our activities regarding ETA
programs were primarily preventive and oriented to evalua-
tion of systems. Specifically, our efforts were aimed at help-
ing ETA accomplish three major undertakings:    (1) the launch-
ing of JTPA, (2) the phase-out of CETA programs, and (3) the
development    of a corrective action plan to rectify benefit
payment control problems in the unemployment          insurance
system.
In addition, we undertook       several other preventive efforts
including the completion of extensive field work for a major
audit of cash management and tax collection         policies and
procedures     in the Unemployment        Insurance program. A
draft report was issued on the cash management portion of
that audit. Finally, with the assistance of ETA, we conducted
a Fiscal Integrity Awareness Seminar for state and local level
JTPA staff. The purpose of the seminar was to bring together
Federal, state and local officials involved with JTPA and to ex-
change ideas and techniques for helping to ensure the pro-
gram's fiscal integrity.

              Job Training Partnership Act
On October 1, 1983, programs under the Job Training Part-
nership Act (JTPA) became operational.       Budget authority for
Fiscal Year 1984 is requested at $3.6 billion. As noted in prior
semiannual reports, we have devoted considerable            effort,
even before the passage of JTPA, to help prevent recurrence
of management problems and program abuses that plagued
the CETA program.
During the first half of Fiscal Year 1983, our efforts focused
primarily on helping ETA draft regulations to help prevent
waste, fraud and abuse in JTPA programs. During this semi-
annual reporting period, we completed a major audit to eval-
uate the status of internal accounting and administrative con-
trol systems developed by the 50 states and seven entities
(Puerto Rico, the District of Columbia, the Virgin Islands,
Guam, American Samoa, Northern Mariana Islands and the
Trust Territories of the Pacific Islands) that receive and dis-
tribute JTPA funds.

To be of maximum value in preventing program deficiencies,
we believed it was essential that the reports be issued prior
to the effective date of program operations, which was Octo-
ber 1, 1983. On the other hand, it was desirable that the au-
dits not be performed so early that the states would not have
had time to undertake development of systems. These con-
trasting considerations    left a short optimal time period for
audit per_formance. Also, to assure that ETA could be provid-
ed with a national report showing comparable data on the
status of systems development        for all entities, at approxi-
mately the same point in time, the audits needed to be per-
formed concurrently     at all 57 entities. As a result, the audit
was a major effort and required the concentration        and coor-
dination of substantial OIG resources.

We were aided in our efforts by the active involvement and
participation of ETA. An ETA staff member participated  on
site at each of the locations as a full member of the audit
team.

A description   of the audit and its findings   and recommenda-
tions follow.


JTPA Systems Audit
Both ETA and the OIG recognized that to help prevent waste,
fraud and abuse from occurring in JTPA programs, JTPA must
be launched from a solid base of sound financial and over-
sight systems. Therefore, at ETA's request, we conducted an
audit to evaluate the adequacy of each state's and entity's de-
velopment of critical systems, and to provide the ETA and
states with information   about the status of such systems. It
was our intention that this information   be used by states to
focus their efforts, where needed, to improve systems prior
to October 1, 1983.
Because our review was performed prior to the effective date
of program operations, the review was limited to the status
and adequacy of systems development,         not systems imple-
mentation.   The audit work covered two broad functional
areas: internal operations of the state's or entity's adminis-
tering agency and state oversight of service delivery areas.
The audit did not include systems at the service delivery area
level unless there was a single statewide service delivery
area. Nor did it include state central service systems, such as
automated data processing systems, over which the state
agency administering JTPA had no direct control.
The JTPA and its implementing     regulations emphasize the im-
portance of internal control systems to ensure program ac-
countability. Under JTPA, the extent of liability for misspent
funds by a state or subrecipient,   as well as the method of re-
payment required for such misexpenditures,          is related di-
rectly to the adequacy of the administering      entity's systems
of internal control.

In considering    whether and how to impose a repayment
sanction on a recipient, JTPA requires the Secretary of Labor
to determine    whether a recipient       has observed specified
"standards of administration."       The standards of administra-
tion contained in the JTPA regulations require adequate in-
ternal control systems in the following        critical areas: cash
management, procurement,         management systems, reporting
and record keeping,      eligibility   determinations,     matching
funds, property management, and oversight and monitoring.
Internal operations   covered by the audit included systems
for:

o ensuring that JTPA funds are properly       controlled   and ac-
  counted for at the state level;

• ensuring that financial and statistical reports submitted      to
  the Department of Labor are accurate and timely; and
• performing   self-evaluations   and taking prompt corrective
  action in both programmatic      and financial areas.
Under JTPA, the proper expenditure of funds is the responsi-
bility of both the states and their subrecipients.  JTPA re-
quires that recipients repay misspent funds, and the regula-


                              m4--
tions require    that the Secretary       may hold the states
responsible for the misexpenditure       of funds by one of its
service delivery areas or subgrantees. However, the state or
local recipient may avoid liability for the misexpenditure   of a
subgrantee if it has established adequate control systems
over its subgrantee.   In determining     whether to impose a
sanction against state or sub-state recipients for violations of
a subgrantee, the Secretary must determine if the states have
adequate subgrantee oversight and monitoring       systems.
Oversight   systems evaluated   by our audit     included   systems
for:

• preparing contracts or grants with       the    service   delivery
  areas that are clear and enforceable;

• monitoring  and auditing the financial       and programmatic
  performance of service delivery areas;
• ensuring that corrective action is taken promptly on defi-
  ciencies noted in monitoring and audit reports; and
• timing the transfer of funds to service delivery areas to co-
  incide with the immediate needs of the service delivery
  areas and to prevent excess cash balances.

Audit Findings and Recommendations--At        the conclusion of
our field work on August 25, 1983, only four of the 57 entities
reviewed were considered by us as ready to effectively begin
JTPA program operations. These states will receive nine per-
cent ($264.1 million) of total requested Fiscal Year 1984 fund-
ing. Nine states or entities, in our view, had made inade-
quate progress in developing systems. They will receive
three percent ($82.3 million)      of total requested   Federal
funding.
Forty-four states had made varying degrees of progress in de-
veloping systems necessary for effective program implemen-
tation. These forty-four states will receive 88 percent ($2.4
billion) of Fiscal Year 1984 requested funding.
For each of the seven critical systems evaluated in these 44
states, the following table shows the degree of systems de-
velopment       in terms of the percentage      of functions    within
each system which         are either completed     and adequate       or
need improvement.         It should be noted that the percentage
for each system on the chart represents        a composite    "score"
of a variety of separate internal      control areas which were in-
dividually    reviewed   and rated in our audit. For example,       un-
der financial     management,    there were 21 subcategories,     such
as bank reconciliations,       cash receipts,  EDP physical    protec-
tion, etc.


            Degree of Systems Development

                                          Completed
                                             and           Needed
                                          Adequate     [mprovement
Systems                                   (Percent)      (Percent)

State-Level Systems
  • Financial Management                      54              46
  o Financial and Statistical Reporting       68              32
  • Self-evaluation and Auditing              41              59

Oversight of SDA's
 • Contract or Grants Preparation             50              50
 • Monitoring and Auditing                    41              59
 o Corrective Action                          34              66
 • Cash Management                            77              23


Although,    as the table indicates,    a substantial    number   of
functions   need improvement,     the states had time between
the end of our field work on August 25, 1983, and the Octo-
ber 1, 1983, start of JTPA to improve    these functions.   The au-
dit results have been provided     to each state for action con-
sistent with their responsibilies    as grant recipients    of JTPA
funds.

We recommended         that ETA provide    immediate     technical  as-
sistance and guidance       to the nine entities    that have made
slow progress     in systems development.      In addition,    we rec-
ommended      that ETA review all entities     during    the first few
months of JTPA operations       to determine    if:


                                    6
•   draft procedures   and controls     were   adequately   com-
    pleted;
• planned procedures     and controls   were adequately     devel-
  oped; and
• all necessary systems were implemented         and working   ef-
  fectively.
Slate and ETA ResponseBSome        states initially objected to
our audit. They stated that it was being conducted before
they had time to develop systems scheduled to be audited,
that their staff time was severely limited and that the audit
was not consistent with their perception of the Federal role
under JTPA. However, as the audit progressed, most states'
objections diminished   and states found the audit to be of
value in improving their operations. Recommendations         and
suggestions made at the exit conferences in each state were
almost always positively accepted. In addition, many states
found the audit guide, which was provided to them prior to
the audit, to be a valuable resource document and plan to
adopt or modify the the guide as a tool for monitoring      their
subgrantees. A number of states have accepted our offer to
provide them with training in using the guide.
In response to the natonal report, ETA has made plans to
provide immediate assistance to the nine states with prob-
lems and the few states identified as having marginally effec-
tive systems. ETA also plans to monitor implementation       of
systems in all other jursidictions during the first six months
of this Fiscal Year. ETA will use the individual state's or en-
tity's audit report as a benchmark against which to measure
its progress.
ETA's plans include the formation    of assistance teams that
will be coordinated by ETA's National Office. ETA asked, and
we have agreed, to provide assistance to these teams.
A secondary benefit of the audit and the audit guide was the
establishment   of a systems-oriented  framework for use on
future JTPA program audits or reviews. This framework may
assist the Secretary in meeting his statutory responsibility to




                             --7--
determine the adequacy of recipient's systems when consid-
ering sanctions. The audit guide will be useful to reviewers at
any level in the JTPA program delivery system.


  Comprehensive        Employment       And Training Act
On September 30, 1983, the Comprehensive            Employment
and Training Act was replaced operationally    by the Job Train-
ing Partnership Act. As required by JTPA, all programs under
CETA must have concluded by September 30, 1983, and fund-
ing for administrative activities related to CETA closeout will
continue only through March 31, 1984.

Because of the large dollar amounts allocated and the num-
ber of grantees that operated CETA programs during its ten-
year history, the closedown of CETA has been an enormous
undertaking. As noted in the last semiannual report, ETA has
taken several actions to help ensure that the CETA closeout
effort is successful. ETA developed and provided closeout
guidance to prime sponsors. ETA closeout teams provided
training to both ETA field personnel and prime sponsor rep-
resentatives to assist in the orderly phase-out of the CETA
program.
We assisted ETA in the CETA closeout training by providing
technical assistance on audit matters and the safeguarding of
assets. This effort began in March and continued       through
June 1983. We also coordinated       with ETA to ensure that
prime sponsors made appropriate audit arrangements during
the final year of CETA operations.    In addition, we planned
and are currently conducting a special purpose review of 56
selected prime sponsors. We are considering reviews of ad-
ditional prime sponsors. Field work for 26 prime sponsors
began in August, one month after all prime sponsors had
submitted required closeout plans to ETA. An additional 30
reviews began in September. All reviews are scheduled to be
completed prior to the actual closeout of CETA on March 31,
1984. These reviews will identify and verify assets and liabili-
ties held by the prime sponsors. Information developed from
the review will be used to ensure that assets and liabilities
are properly identified, transferred to JTPA where applicable,
or returned to the Federal Government     at the termination   of
the program.
Although we have not completed the reviews, preliminary re-
sults from the 26 reviews begun in August indicate that many
of the prime sponsors reviewed have serious problems in
three areas: reconciling cash, preparing correct property in-
ventories, and developing closeout period cost estimates.
At 17 of the 26 prime sponsor sites, we experienced difficulty
in reconciling the amount of cash on the books with reports
of remaining    cash balances. We found that these prime
sponsors had understated the amount of unspent funds.
In 10 of the 26 sites visited, property inventories submitted
by the prime sponsors were in error. To date, property
omitted by these primes from the inventories has not been
totally quantified; however, at those sites where the proper-
ty audit has been completed,       $100,000 was identified   as
unreported.
Some prime sponsors in the 26 special reviews have overesti-
mated their closeout costs. For example, one prime sponsor
estimated $100,000 to microfiche all CETA records when rec-
ords could be stored for $18,000. In addition, some prime
sponsors are inflating wage costs by estimating the need to
retain the entire CETA administrative  staff during the legis-
lated six month closedown period.


         Unemployment         Insurance Program

The Unemployment      Insurance program is a unique Federal-
state partnership that is based upon Federal law, but is im-
plemented through individual state legislation. The program
is administered at the state level by State Employment Securi-
ty Agencies in the 50 states, and three other entities, the Dis-
trict of Columbia,     Puerto Rico and the Virgin Islands.
Throughout this report, the term "state agency" will refer to
the 50 states and three entities.

In the last two years, because of high unemployment  and re-
sulting increases in program expenditures, increased empha-
sis was placed on the Unemployment       Insurance program. In
Fiscal Year 1983, nearly $30 billion was paid in state unem-
ployment insurance benefits and Federal-state extended ben-
efits. This is more than a 100 percent increase over the Fiscal
Year 1980 figure of about $14 billion.

Our major activities related to the Unemployment     Insurance
program during this reporting period were preventive in na-
ture. We actively participated on ETA's Benefit Payment Con-
trol Oversight Committee which was established, in part, as
a result of our report on benefit payment controls which was
discussed in the last semiannual report. Field work was com-
pleted on an audit of state agency tax collection     and cash
management practices and procedures. A draft report on the
cash management portion of this work was issued to ETA at
the end of this reporting period. This draft report indicated
potential interest in excess of $25 million could be earned
with improved cash management practices. Reports of find-
ings in four other audited areas are being prepared.


Benefit Payment ControJ Oversight            Committee

ETA's response to our report on preventing and detecting
overpayments    within the unemployment       insurance system
was extremely positive. As noted in the last semiannual re-
port, ETA took immediate corrective action to address specif-
ic problems in the states audited. In addition, ETA initiated a
Benefit Payment Control Oversight      Committee      to review
unemployment      insurance benefit payment control systems
and to formulate a series of reforms. Since its establishment
in April 1983, the Committee received high level priority by
both ETA and the OIG.

The Committee was chaired by the Assistant Secretary for
ETA and included a number of senior ETA officials. The OIG
was represented on the Committee by the Inspector General
and the Assistant Inspector General for Audit. Another entity
represented on the Committee      was the Interstate Confer-
ence of Employment      Security Agencies. The General Ac-
counting Office provided technical advice to the Committee.


                              10
Decisions reached by the Committee will result in the devel-
opment of systems to help prevent losses of unemployment
benefit funds and effect many of the changes we recom-
mended in the benefit payment control report. These initia-
tives are described below.

Proposed Quality Control System--Unemployment            insur-
ance administrative    funding has been based primarily on
workload;   quality of performance     has generally not been
considered in the grant allocation process. The Committee
agreed that the Unemployment      Insurance program needs a
quality control system in order to assess state agency per-
formance on an annual basis. Such a system will measure er-
ror rates and identify causes of errors and corrective actions
needed to improve management. Many other Federally fund-
ed benefit programs have such systems.
For the present, the Committee decided to institute the qual-
ity control system as a system of management oversight. The
Committee decided to defer for future consideration     the ne-
cessity of attaching penalties, rewards or enforcement    provi-
sions to the system. Even without        sanctions, the system
should create incentives      for State Employment     Security
Agencies to improve unemployment          insurance operations,
especially if, as the Committee      agreed, results are publi-
cized.

During the Committee's        deliberations,   the OIG supported
the proposal, eventually adopted by the Committee, that the
quality control system be built on the Random Audit pro-
gram. The Random Audit program is a management tool de-
signed to estimate the benefit payment error rate of a partic-
ular state, by type and cause of error. The program provides
statistically reliable data on the quality of the state's benefit
payment operation       by'measuring      the rate of overpayment
and underpayment       error. Currently, this information   is used
by state managers to formulate plans to correct problems.
Since the Random Audit now focuses on the payment proc-
ess, this process will be the initial focus of the quality control
effort.  Random Audit results may be used to develop a
benchmark by which ETA will measure the quality of a state's
benefit payment control operations.       Eventually, other proc-


                              --11 --
esses such as tax collection operations, which are measure-
able and appear to need improvement,     could be evaluated
and considered for inclusion in the quality control system.
ETA is now researching how the Random Audit program can
be revised and expanded into a quality control system.
Wage Reporting Requirement--Another             major issue dis-
cussed by the Committee was how to get all states to keep
quarterly or periodic employer payroll reports on file. Cur-
rently 10 of the 53 jurisdictions    which administer unemploy-
ment insurance programs do not require periodic employer
reports for determination     of unemployment     insurance bene-
fits. As we noted in the last semiannual report, periodic wage
reports,   in combination        with automated      systems   for
matching the reports with benefit records, are an effective
tool for detecting and preventing overpayments          in the Un-
employment     Insurance program.
The value of the wage reports for the detection of overpay-
ments in the Unemployment        Insurance program was vali-
dated in the benefit payment control audit report. During
that audit, we found that states without the reports could not
detect overpayments    due to unreported earnings as effect-
ively as states which had the reports.
Since the benefit payment control report was released, the
Unemployment      Insurance Random Audit program has shown
that, if a week of unemployment    benefits is randomly chosen
from a state that does not collect periodic wage reports, the
likelihood that the claim was overpaid, due to an error in the
wage information used to calculate the benefit amount, is 4.7
times higher than a week selected randomly from a state that
does collect the wage reports. This demonstrates that, with
quarterly wage information,   states can more effectively pre-
vent benefit overpayments.
One way to ensure that all states have wage reports is to en-
act Federal legislation requiring  it. In August 1982, the De-
partment of Labor proposed a legislative initiative to require
that all states amend their laws to require periodic wage re-
ports. We worked closely with ETA and departmental        man-
agement to develop this legislative package. At that time, the
Office of Management and Budget (OMB) did not support


                               12
the proposal. This summer, the Department again raised the
issue with OMB. At the end of this reporting period, OMB
had still not responded to the Department's    request for
reconsideration.

We continue to strongly urge enactment of a Federal re-
quirement.     H.R. 926, a proposal similar to the Department's,
has been introduced in the 98th Congress. We strongly sup-
port this initiative. Periodic, timely wage information is a key
element in the detection of overpayments         in many income-
based assistance programs, as well as in the Unemployment
Insurance program. Since the ten states that do not currently
collect such reports represent approximately        one-fourth   of
the current unemployment        insurance claim load, Federal leg-
islation is even more important.

While continuing to seek Federal legislation, the Benefit Pay-
ment Control Oversight Committee agreed that ETA would
encourage voluntary adoption of the wage reports by states.
Since a major obstacle to adopting wage reports is the legis-
lative, administrative and automated data processing systems
costs that the change would incur, additional budget authori-
ty would be needed to help states meet these costs. We
strongly agree that funding is needed for this purpose.
Model Aulomated Systems--Included         in our audit report on
benefit payment controls were recommendations          related to
three automated model systems designed to assist states in
benefit payment control and recovery operations.          Two of
these, one for detecting       overpayments    by crossmatching
wage files with benefit files and the other for managing
overpayment recoveries, were developed and distributed by
ETA to the State Employment Security Agencies more than
five years ago. As part of the audit, we reviewed the use of
these two systems in the audited states. The third, a system
for detecting fictitious employers, was recently developed in
California and has been adopted in modified form by a few
State Employment       Security Agencies. In the audit, we re-
viewed the California system and helped the states we au-
dited experiment using the principles of the system in their
efforts to detect fictitious employer schemes. We concluded
that these model systems, as designed, are effective in de-


                                13
  tecting unemployment     insurance overpayments    and recovl
  ering overpaid dollars. These systems also provide managers
  with valuable management information that can be useful in
  planning activities, thus permitting a more efficient use of
  resources.

  Our audit and recent ETA reviews of state agency benefit
  payment control operations suggest that, in most cases, the
  state agencies have not implemented the model wage/benefit
  crossmatching   and recovery systems as designed. Instead,
  the states have developed     modifications     to the systems
  which are not as comprehensive    and productive as the origi-
  nal models. We recommended        that all state agencies fully
  implement these automated systems.

  The Benefit Payment Control Oversight Committee discussed
  the development     and introduction    of additional   models for
  other unemployment     insurance operations, such as eligibility
  determination.   The Committee decided that the first priority
  would be the refinement and full utilization of the three ex-
  isting models--wage/benefit       crossmatching,    recovery, and
  fictitious  employer   detection--and      that the Department
  would focus on these systems before additional model sys-
  tems are developed.      In addition,   the Committee      decided
  that, as an incentive for states to implement the three sysl
  tems, a state's decision to adopt or improve these systems
. would be considered a priority when automation grants deci-
  sions are made.

  Additional Proposals--This      Office and the Committee          are
  committed     to designing ways to prevent benefit overpay-
  ments by intercepting      the process before the first benefit
  payment is made. The Committee           is considering three pro-
  posals which are directly aimed at prevention            of overpay-
  ments. These proposals are: a precheck system for checking
  eligibility before the first payment is made, a cross-linkage
  program to link unemployment         insurance eligibility verifica-
  tion efforts with those of other Federal and state benefit pro-
  grams such as food stamps, and the development                 of an
  error-prone    profile of unemployment      insurance claimants to




                                   14
identify characteristics   of claims   that   frequently   result   in
overpayments.


Unemployment          Insurance Cash Management

During this reporting period, we completed audit field work
in 12 states--Alabama,     Arizona, Florida, Illinois, Louisiana,
Massachusetts,     Michigan,    New Jersey, Pennsylvania,     Vir-
ginia, Washington     and Wisconsin--on     a major audit of un-
employment     insurance tax operations. A draft report was is-
sued on the portion of that audit covering State Employment
Security Agency cash management policies and practices.

State unemployment     insurance benefits are financed by state
employer taxes (and employee taxes in three states). Taxes
are collected by the states and funneled through each state's
"clearing"    account into the Unemployment         Trust Fund
where it is credited to each individual state's account.

The Secretary of the Treasury invests those funds which are
not required to meet current benefit payment demands. In-
terest earned on a state's trust fund account is credited to
the state's account. The states withdraw    funds from the
Unemployment    Trust Fund to pay benefits.

Cash Management         Practices Result in Interest Losses--
During Fiscal Year 1982, the states deposited approximately
$13 billion in employer taxes into the Unemployment            Trust
Fund. Interest earnings on the Trust Fund for this period
were approximately $1.2 billion. The primary purpose of our
audit was to determine the effect of cash management prac-
tices on the earnings of the Unemployment         Trust Fund. We
estimate that for Fiscal Year 1982, at a minimum, $25 million
in interest     was not being       earned    annually      by the
Unemployment       Trust Fund due to inefficient      state agency
cash management policies and practices. Cash management
in the unemployment      insurance system involves: (1) depos-
iting unemployment        insurance   tax contributions      to the
state's clearing account maintained at a commercial bank; (2)
transferring   such funds from the clearing account to the
Unemployment      Trust Fund; and (3) withdrawing       funds from


                                15
the Unemployment   Trust Fund for deposit into the benefit
payment account, maintained at a commercial bank, to meet
benefit payment needs.
Deposits into the Clearing Account--States'      deposits of em-
ployer contributions    to the clearing account were not always
timely. The average processing time from receipt of an em-
ployer tax contribution    to deposit in the clearing account in
the states reviewed was 2.31 days. Assuming that the proc-
essing time of 2.31 days is representative           of all state
agencies, the Unemployment        Trust Fund, in Fiscal Year 1982,
would have earned approximately $5 million in interest if all
tax contributions    had been deposited within one day of re-
ceipt by the agencies.
We found various reasons for the delay in depositing tax re-
ceipts to the clearing account including:      (1)states' adher-
ence to ETA's desired level of achievement for depositing tax
contributions,   which only specifies that 90 percent of tax dol-
lars be deposited within three days of receipt; (2) infrequent
mail collections;   and (3) performing extensive audits of tax
returns prior to the deposit of tax remittances.
Transfer of Clearing Account Funds to the Trust Fund--The
Social Security Act requires that states deposit tax contribu-
tions into the Unemployment      Trust Fund immediately upon
receipt. Many states were maintaining excessive balances in
the clearing account. We estimated that approximately        $2.5
million in potential interest earnings was lost because states
maintained     more than one day's deposit on hand in the
clearing account. Causes of excessive cash balances in the
states audited included: (1) following ETA's minimum criteria
which allows two days for deposit; (2) the inclusion of other
state offices, such as the state treasurer, in the transfer proc-
ess; and (3) maintaining collected funds to compensate the
banks for services.

Funds Maintained    in the Benefit Payment Account--States
draw down funds from the Unemployment          Trust Fund into
the benefit payment account to pay for benefits. We estimate
that between July 1, 1981, and June 30, 1982, as much as $17.9
million in potential interest earnings was lost on funds in
these accounts. This estimate assumes funds have been


                               16
drawn down daily to meet only immediate         bank needs to
clear benefit checks.

The Social Security Act does not specify when funds should
be withdrawn   from the Unemployment      Trust Fund to pay
benefits. ETA has issued a policy stating that state agencies
should attempt to maintain no more than an average of 1.5
days benefit needs on hand. However, 60 percent of the 50
states we analyzed maintained more than 1.5 days benefits
on hand.

Three primary conditions caused excessive cash in the bene-
fit payment account and resulted in lost potential earnings.

First, certain legal and administrative    requirements   of the
states contributed to the loss of interest. These requirements
determine whether the states use either a "negative ledger"
or a "positive ledger" balance to determine the amount of
cash drawdowns. States using negative ledger balances delay
withdrawals to coincide with the number of benefit checks
expected to be cleared each day. Positive ledger balance
states maintain sufficient cash balances to cover all benefit
checks when written. The four positive ledger states in our
audit maintained from 3.8 to 11.8 times the average daily
benefit payment needs in cash as the eight negative ledger
balance states.

Second, some states did not have formalized procedures for
drawing down funds which would ensure funds requested
were not in excess of immediate needs.

Third, unemployment    insurance benefit funds in the benefit
payment accounts in excess of daily check clearing needs
were not being invested in many cases..All 12 states were
maintaining excess funds to compensate banks for banking
costs. Since no direct costs are incurred,    we found that
banking services were not evaluated to determine        if the
charges were competitive for the services rendered nor were
they competitively   procured.   Frequently, states accepted
service charges and interest earning rates unilaterally set by
the banks.



                            --17m
Ten of the 12 states did not invest cash in excess of compen-
sating balances. Although two states invested some of the
funds, the interest       earned did not benefit       the states'
unemployment      insurance program, but was added to general
revenues. Neither the Social Security Act nor current ETA
policy clearly defines the investment authority and responsi-
bilities for employer tax dollars at the state level. Some inter-
pret the Social Security Act as giving the Secretary of Treas-
ury sole investment       authority over states' unemployment
funds, thus prohibiting    the states from investing such funds.
In states using positive ledger balances, such an interpreta-
tion of investment authority results in millions of dollars in
unemployment       insurance funds remaining      "idle"   in state
commercial bank accounts.

Major Recommendations for Increasing Interest Earnings--
We recommended  that ETA sponsor Federal legislation to:

• provide   for   payment   of bank      costs from    administrative
  funds;

• require segregation of unemployment  insurance funds
  from other state funds while such funds are in state
  custody;

• require immediate transfer to the Unemployment                 Trust
  Fund of all bank collected tax contributions;

® require states to draw down from the Unemployment              Trust
  Fund only those funds immediately needed;

• require overnight investment by the states of all cash in
  the clearing and benefit payment accounts, with the inter-
  est to be used exclusively to fund benefit payments; and

• require   procurement     of banking     services   by competitive
  bid.

We also recommended         that ETA take administrative        action
to:

• revise its policies regarding desired levels of achievement
  to provide better efficiency in cash management;


                                 18
• encourage states to improve agency processing        proce-
  dures to meet revised desired levels of achievement;   and

• encourage states to remove state legal and administrative
  requirements  which promote    inefficient cash manage-
  ment.

Since our draft report was issued late in the reporting peri-
od, ETA has not had sufficient time to formally respond to
our findings or recommendations.    However, the report was
well received by the ETA and we plan to work with that Agen-
cy to effect needed changes in state agency cash manage-
ment policies and practices.


        State Employment Security Agencies
As discussed in the last semiannual report, we completed an
audit of ETA's management of appropriations       provided to
State Employment Security Agencies for operating the Unem-
ployment    Insurance and Employment      Security programs.
During that audit, we became aware that state agencies were
being used to purchase goods and services for ETA. This
practice is known as "pass-through"  funding.
On September        18, .1980, the General Accounting      Office
(GAO) issued a letter report criticizing the Department of La-
bor and ETA for this practice. In that report, GAO defined a
"pass-through"     as a procurement    action which was initiated
and principally    carried out by ETA, but which was entered
into by a state--on behalf of ETA--and a vendor using Feder-
al funds granted to the state. GAO stated that pass-throughs
effectively   circumvent     procurement     standards  and safe-
guards and did not ensure the protection of the Federal Gov-
ernment's    interests. GAO recommended          that the Depart-
ment of Labor discontinue       using pass-throughs.
Subsequent to GAO's report, the Department agreed to dis-
continue pass-throughs,   except with unemployment      insur-
ance and employment     service Grants-to-States. The Depart-
ment stated that, under that Act, Federal funds that were
used to benefit the employment    security system nationwide
could be passed through a state agency.


                            m19w
Because of pass-through examples that came to our attention
during the audit of ETA's managment of appropriations,    we
initiated a review to determine the extent to which ETA con-
tinued to use pass-throughs and the nature of those agree-
ments. We reviewed pass-throughs       provided to us by the
state agencies in response to our request for information on
these agreements. We found that ETA continued to use pass-
throughs extensively and, in our opinion, improperly.
Each of ETA's ten Regions used pass-throughs in at least one
state. Sixty-one pass-throughs were reported by 30 of the 53
state agencies. These pass-throughs      purchased goods and
services totaling $13,035,118 in Fiscal Years 1981 and 1982.
The pass-throughs we examined effectively circumvented de-
partmental procurement     procedures and were frequently in-
efficient and costly. In addition,   although ETA stated that
pass-throughs were justified only when the goods and serv-
ices benefited the entire employment       security system, we
found instances where pass-throughs were used to benefit
only a portion of that system or a single Regional Office.
For example, an ETA Regional Office approved a state agen-
cy's supplemental      budget request for the sole-source pur-
chase of a $20,000 computer terminal. However, the terminal
was not for the state agency. Both the invoice and contract
documentation      stated that the terminal was to be delivered,
 installed, and maintained at the ETA Regional Office, which
 had specified    the particular   make and model to be pur-
chased. By using this indirect method of procurement,         the
Regional Office by-passed procurement         rules and the De-
partment's     requ'irement   that automated     data processing
equipment     be purchased or authorized to be purchased by
the Department's       Office of the Assistant Secretary for Ad-
ministration and Management.




                               20
Employment Standards Administration
The Employment Standards Administration     (ESA) is composed
of three components. The Office of Workers' Compensation
Programs (OWCP) administers three laws providing compen-
sation and medical benefits, primarily for on-the-job injuries
and occupational diseases to civilian employees of the Federal
Government, coal miners, and longshore and harbor workers.
The Wage and Hour Division enforces minimum wage and
overtime standards, establishes wage and other standards for
Federal contracts, and enforces aspects of other employment
standards laws. The Office of Federal Contract Compliance
Programs administers an Executive Order and portions of two
statutes which prohibit Federal contractors from engaging in
employment discrimination    on the basis of race, color, reli-
gion, sex, national origin, handicap, or veteran's status, and
which require affirmative action to ensure equal employment
opportunity.

During the past several years, the ESA program which has re-
ceived the greatest OIG audit and investigative attention has
been OWCP, especially OWCP's management of the Federal
Employees' Compensation     Act (FECA). FECA is again high-
lighted in this report, although this report includes some
discussion of other ESA programs elsewhere in the report.
FECA is generally the sole form of workers' compensation
available for Federal employees who suffer on-the-job injury
or occupational disease. The Department of Labor is responsi-
ble for administering the Act, but actions by all Federal em-
ploying agencies, the Office of Personnel Management and
the Office of Management and Budget influence implementa-
tion.

ESA has requested, for Fiscal Year 1984, a nationwide staffing
level for FECA of 928 and a budget of $45.5 million for pro-
gram management. The request for the Employees' Compen-
sation Fund totals $1 billion, of which $824 million represents


                              21
reimbursement    from other Federal agencies' appropriations
or revenues. Currently, approximately 45,500 claimants (down
from 47,500 last year) are receiving long-term benefits under
FECA, and it is estimated that 1.4 million compensation and
medical payments will be made in Fiscal Year 1984. The follow-
ing chart shows the rise in FECA compensation costs from Fis-
cal Years 1970 to 1982.

The last report discussed numerous problems identified in au-
dits and investigations concerning  OWCP's management of
the FECA program. Also discussed were needed changes, in-
cluding strengthening the role of employing agencies in FECA
management, legislative reform, regulatory reform and im-
provements in management systems. OWCP is making prog-
ress in all four areas. We strongly urge continued efforts to
complete implementation     of all outstanding   recommenda-
tions, and to address remaining areas of serious concern.


  Progress in Areas Discussed in the East Report

Legislative Reform
We were hopeful of progress in bringing about legislative re-
form to FECA when the Department of Labor sent a compre-
hensive legislative proposal to the Congress. This proposal in-
volved considerable work and extensive consultation by ESA
with the employing agencies, Federal employee unions, OIG
and other interested parties. The proposal contains a number
of recommendations     we had made, would apply benefits un-
der the Act more equitably, and would significantly enhance
management of the FECA program. Yet, the proposal has
floundered for lack of a Congressional sponsor, and its intro-
duction in this session of Congress is in doubt. Considering
the improvements the proposal could bring about if enacted,
we are distressed over the evident lack of interest with which
Congress has received the Department's proposal.
Among the changes the p_oposal would make are: requiring a
waiting period prior to payment of any benefits to reduce the
impact on the system of very minor injuries; reducing contin-
uation of pay to 80 percent of regular pay (rather than the cur-


                            R22--
         FECA Annual Compensation Costs, FY 1970.82
            Annual Compensation Cost in Millions $

Compensation         Costs       (Millions)                                                      $905.2



$900                                                                            I    $849.(
                                                           Actual      Total    Outlays
$8oo l-                                                                          I
                                                                             $784.8


                                                                                                 712.9

$7O0     --                                                         $70O.0



                                                              $626.4
                                                                                         622.0
$600     --

                                                     $552.1                          566.5

                                                                             524.5
$500     --
                                              $4
                                                                        .2



                                                           _14.4
$400     --

                                   $367.5              Total Outlays Discounted
                                                       forlnflation b


$300     --                                        315.3
                           $270.6


                     $217.7               230.6

$20O --
                                  194.8
       $163.7            179.8
                 159.0

$100
       70       71   72      73      74        75     76       77      78       79      80    81 a 82 a

                                                     Fiscal    Year


a Data for FY 1981 and 1982 reflect compensation cost based on revised
  accounting procedures now in effect. Using accounting procedures in effect
  prior to FY 1981, compensation costs would have totalled about $890 and $878
  million in FY 1981 and 1982.
b FY 1970-82 costs based on 1970 dollars--discounted                           by fiscal year average
  CPI, Series W.




                                                    -23
rent 100 percent) during the first 45 days after the waiting peri-
od ends; adjusting the rate of compensation paid thereafter to
66 2/3 percent of gross salary for all claimants (to eliminate ex-
isting disparities in benefits); adjusting the compensation rate
for death cases to conform to the disability rate; adjusting
schedule awards to more equitably compensate recipients for
permanent injuries; requiring early referral of disabled work-
ers to visiting nurses or similarly qualified rehabilitation     spe-
cialists; requiring the Department       to establish medical fee
schedules; authorizing the Department to exclude from par-
ticipation in FECA those physicians who abuse the program or
engage in certain types of professional misconduct;         increas-
ing criminal penalties for claimant misrepresentation     and con-
cealment of related claim information;      increasing the Govern-
ment's authority to pursue claims against third parties who
may be liable for injuries leading to FECA claims; requiring
employing agencies to establish procedures to facilitate dis-
abled employees in returning to work; authorizing condition-
al extension of the existing one-year reemployment            rights;
and defining total disability.
In several past semiannual reports, we have urged OWCP to
improve management of the FECA program, where possible,
through    administrative  and managerial channels.     Further-
more, we have provided ESA managers with specific recom-
mendations, in semiannual reports and elsewhere, for doing
so. However, important reforms contained in the proposal the
Department sent to Congress require legislative changes to be
implemented. Among these are the. application of income re-
porting requirements to totally disabled recipients; the appli-
cation of felony penalties to recipients who misrepresent re-
ported income or who fail to report income as required;
adjustments to pay following an injury to encourage the claim-
ant's return to active employment;     equitable adjustments to
compensation rates; and changes to claimants' reemployment
rights. Congress' failure to consider the Department's propos-
al will prevent the implementation     of important reforms by.
OWCP and the employing agencies.




                                 24
Regulatory Reform
OWCP has made recent progress in FECA regulatory reform,
resulting in three separate regulatory proposals under current
development or consideration.     The first proposal would es-
tablish procedures for suspending or debarring fraudulent or
abusive providers of medical services or supplies from partici-
pation in the FECA program. The second would establish a
system of medical feeschedules to contain medical treatment
costs. The third would tigthen certain procedures in adminis-
tering the FECA program. Each of these is considered sepa-
rately.
Suspension and Debarment--We        have strongly advocated
that OWCP establish procedures to exclude from participation
in the FECA program those providers of medical services or
supplies who defraud the Government or who engage in cer-
tain abusive billing, treatment or reporting practices. While
the proposed legislation would permit exclusion of such pro-
viders from participation in the FECA program, we have as-
serted that OWCP need not rely upon legislation to exercise
such sanctions administratively. OWCP is now moving ahead
to do so.

OWCP is already instituting part of the procedures necessary
to make such a system work by distributing to district offices
lists of medical providers who lose their licenses or who are
suspended from participation    in Medicare/Medicaid.   Listed
providers are matched against current FECA program provid-
ers, and their names are flagged in the computer system for
special attention when they submit bills.
On October 18, 1983, the Department published in the Feder-
al Register for 45 days' public comment proposed regulations
on suspension and debarment of fraudulent and abusive med-
ical providers. The debarment      regulations would establish
procedures to enable OWCP to exclude from the FECA pro-
gram providers of medical services or supplies who: (1) were
convicted under any criminal statute for fraudulent activities
in connection with Federal or state programs for which medi-




                              25
cal payments are made (in which case exclusion would be au-
tomatic); (2) were excluded or suspended from any such Fed-
eral or state program; (3) misrepresented     a material fact in
connection with medical payments or reimbursements;        or (4)
engaged in specified abusive billing or reporting practices.
Excluded providers would be barred from seeking payment
for services provided under FECA after the effective date of
exclusion. The regulations would provide both an informal
and formal decision process, with the formal decision arising
from a hearing requested by the provider. An excluded pro-
vider could apply for reinstatement, generally one year after
the issuance of the exclusion order.

We believe that the codification of suspension and debarment
regulations will be a significant step forward in improving the
management of the FECA program, and urge OWCP to quickly
promulgate final regulations after due consideration of public
comments.
Medical Fee Schedules--FECA      medical costs have risen over
the last few years, from $69.5 million in Fiscal Year 1977, to
$116 million in Fiscal Year 1981, to $149 million in Fiscal Year
1983. The containment of medical costs through geographical-
ly differentiated  schedules of maximum permissible fees for
specific services has been a matter of prime interest for us for
the past several years, and we have recommended on several
occasions that OWCP adopt schedules of fees for medical
services performed under FECA. Medical fee schedules could
result in substahtial savings and more consistent payments to
different medical providers within single geographic regions.
Systems of medical fee schedules are already in use in other
programs, such as Medicaid/Medicare.
OWCP is now completing development of a regulatory pro-
posal providing for a system of medical fee schedules. The
regulation would prohibit payments above established limits
for specific services and would prohibit the provider from at-
tempting to obtain from the claimant the difference between
the amount billed and the amount paid by OWCP. The under-
lying medical fee schedule, to be incorporated    into OWCP's
existing automated bill payment system, would take effect si-
multaneously with the regulations.


                               26
As of the end of this reporting period, the medical fee regula-
tion was under review by the Labor Department's Office of
the Solicitor. ESA anticipates clearing the Solicitor and send-
ing the proposal to the Secretary's Policy Review Coordinating
Committee in early December 1983. Thereafter, the proposal
will go to OMB for review, after which it will return to the Sec-
retary for signature and publication in the Federal Register for
public comment.
We recognize that the development of fee schedules has been
a lengthy and complex process, and that their implementation
will also be a difficult matter. We therefore urge OWCP to
move as quickly as possible in its consideration of comments
to the proposed regulations, the drafting and publication of fi-
nal rules, and the institution of the administrative and mana-
gerial measures necessary to implement the system of fee
schedules. We will closely track progress in this area, and will
report on this subject again in the next semiannual report.
Procedural    Regulations--OWCP         has drafted significant
changes to the FECA regulations. The draft has been reviewed
by the Office of the Solicitor, and OWCP is arriving at agreea-
ble changes. ESA anticipates publishing the proposed regula-
tions in the Federal Register for public comment in early 1984.
While a wide range of changes would be brought about by the
revisions, those of greatest interest to OIG would: (1) more
clearly delineate     the responsibilities  of the employing
agencies; (2) clarify the claims filing process; (3) clarify re-
sponsibilities for returning injured employees to work; (4) and
clarify reporting requirements. We will report further on the
revisions in the next semiannual report.


The Role of the Employing Agencies
While the Department Of Labor's FECA program is responsible
for paying compensation   and medical expenses for Federal
workers injured on the job, the role of those agencies em-
ploying Federal workers is central to the successful manage-
ment of the Federal employees' compensation      system. The
OIG has been active in evaluating the roles that employing


                            w27--
agencies could play, and in making recommendations    for im-
proving the working relationship between OWCP and the em-
ploying agencies. Our interest has focused on two aspects of
the relationship between OWCP and the employing agencies:
(1) the employing agencies' role in program management; and
(2) the chargeback system. The last semiannual report dis-
cussed both of these areas at length.
Establishing a Role for the Employing Agencies--Historically,
most Federal agencies for whom the Department of Labor ad-
ministers the FECA workers' compensation program have had
little interest in the program's administration. Only in the past
few years have some of these employing agencies taken an ac-
tive interest in reducing the rise of FECA costs. Concerns over
the rising costs of the FECA program and the role that the em-
ploying agencies could play in reducing costs led to the 1981
formation of an interagency working group, under the aus-
pices of the President's Council on Integrity and Efficiency, to
study the role of the employing agencies and to recommend
ways in which they could participate more actively in manage-
ment of the FECA program. The report of the study, released
in 1982, contained numerous managerial and some legislative
recommendations.

As a result of that report, the Secretary of Labor established
the Employing Agencies Task Force, comprised of representa-
tives from the various employing agencies and the pertinent
components     of the Department    of Labor (OIG, ESA, and
OWCP). The Task Force was asked to consider the recommen-
dations of the report, and to make recommendations     for FECA
reform, including changes to legislation, regulations, the role
of the employing agencies in the FECA program, and adminis-
trative and managerial changes.

During the last six months, the Employing Agencies Task
Force has made progress in several key areas and on recom-
mendations which were made in the report. The Task Force
participated in the preparation of the legislative proposal for
FECA reform. In addition, the Task Force addressed recom-
mendations leading to the pending regulatory changes dis-
cussed earlier. Finally, the Task Force approved a comprehen-
sive training   plan for enhancing     skills of compensation


                               28
specialists, managers and other employees associated with the
management of the FECA program in both OWCP and the em-
ploying agencies.
Other recommendations       from the employing agencies report
remain to be addressed, and we hope that the interest that
the employing agencies have shown to date will not diminish
now that the Employing Agencies Task Force has finished ad-
dressing legislative and regulatory reforms. The most im-
portant of these remaining recommendations       are those per-
taining   to the implementation       of Injury Compensation
Programs within the employing agencies. The report specified
a number of elements that Injury Compensation          Programs
should contain, including:     procedures to encourage injured
workers to return to work and to make them aware of their
rights and responsibilities under FECA; procedures to identify
light duty positions for workers with minor disabling injuries
who can work while recovering; and systems to obtain medi-
cal information as close to the time of injury as possible so
that the claimant's disability can be determined and moni-
tored.

Although the recommendations     pertaining to Injury Compen-
sation Programs are dependent upon the employing agencies
themselves for implementation,    we believe that OWCP and
the Employing Agencies Task Force must serve as catalysts to
ensure timely and effective implementation.    This process can
begin by assigning the working group within the Employing
Agencies Task Force the project of designing a Model Injury
Compensation Program. The Model Injury Compensation Pro-
gram would address all organizational     aspects necessary for
the successful operation of the FECA program within the em-
ploying agencies, including:
• organization   of the Program;

• instructions on all phases of Program operations (includ-
  ing model    regulations,   directives, and bulletins  for
  adaptation and issuance within the agencies;

• systems to ensure rehabilitation      and the return   of injured
  employees to work;


                                   29
® systems for monitoring     and reporting injuries, compensa-
  tion, rehabilitation efforts, results of efforts to return em-
  ployees to work, and FECA-associated costs (including costs
  incurre d in the chargeback system); and
® a system for coordinating   with OWCP.
In addition, the working group would develop guidelines per-
taining to the application of the Model to individual agency
needs. Agencies with very small chargeback costs, for exam-
ple, could be exempted from full implementation   of programs
based upon the Model Injury Compensation Program.
After development    of the Model Injury Compensation       Pro-
gram, we believe that OWCP should be responsible for ne-
gotiating implementation     agreements with each employing
agency. In each agreement, the employing agency would as-
sume responsibility   for implementing   specific aspects of the
Model Injury Compensation       Program (to account for operat-
ing differences   among the employing      agencies). Once an
agreement was entered into, OWCP's responsibility         would
be to coordinate activities with the employing agency, pro-
vide technical assistance, and monitor implementation.
Ensuring the Integrity of the Chargeback System--OWCP        ad-
ministers the FECA program, but the Department of Labor
does not generally pay for FECA claims (other than its own)
from its budget. Payments made to or on behalf of FECA
claimants come from the Employees' Compensation           Fund.
The Department of Labor annually bills the Federal employing
agencies for the FECA benefits expended on their behalf dur-
ing the year. The agencies, for the most part, request the Con-
gress to include FECA costs in their annual appropriation. The
system is thus known as the "chargeback"     system, since DOL
"charges back" benefit payments to the appropriate          em-
ploying agency.
Agencies that receive funding through appropriations      reim-
burse the chargeback system differently from agencies which
receive funding through operating revenues. While it is true
that FECA costs are "charged back" to employing agencies,
costs incurred by appropriated fund agencies are met from a
special allocation contained within the benefits portion of the


                               30
agency's salary and expense appropriation,    not from operat-
ing expenses or base salaries. Because, in effect, appropri-
ated fund agencies do not have to divert operating funds to
pay their chargeback bill, they have little monetary incentive
to reduce FECA costs.

Not all of the appropriated     fund agencies pay the entire
chargeback costs that their claimants incur. For the past sever-
al years, the Department of Defense has had a ceiling placed,
through its appropriations   legislation, upon the amount of
money it is required to pay back to the Department of Labor
through the chargeback fund. The ceiling results only in sav-
ings to the Defense budget, not the Federal budget, since the
Department of Labor must pick up any compensation costs
which exceed Defense's ceiling amount. In contrast, agencies
which receive income from operating revenues (non-appro-
priated fund agencies), such as the U.S. Postal Service (USPS)
and Tennessee Valley Authority (TVA), actually have to pay
FECA benefits out of funds otherwise available for operations.
These agencies also have to pay a portion of program adminis-
trative costs; appropriated   fund agencies do not pay any
portion of administrative   costs. Higher FECA costs divert
funds from other uses. The next graph shows the changes in
FECA chargeback costs over the past few years.
Rising FECA program costs have been of great concern to both
the employing agencies and the OIG. One way of curbing
escalating costs is through the establishment of Injury Com-
pensation Programs, which we discussed earlier. Another way
is to ensure that the chargeback system is accurate in its bill-
ings. We believe that the employing agencies should expect,
at a minimum, a chargeback bill certified as accurate by a firm
of Certified Public Accountants (CPAs) to ensure that they pay
only their share of FECA costs. When the FECA chargeback bill
is submitted with the certification of its accuracy, there should
be no justification for Congressional ceilings on chargeback
obligations.
As a step toward improving the accuracy of the chargeback
system, both the USPS and we have contracted with CPA firms
to perform audits of the FECA chargeback system. At the out-
set, OWCP recognized that certain problems existed which


                               31
                         ESA's Chargeback Billings
                         to the Employing Agencies
       Total Costs (Thous.)
       1000




        800 -




        600




        400




        200




         0
                  1979        1980       1981        1982    1983

                              Expense Period (Fiscal Year)




caused the chargeback      system to be out of balance, and ad-
vised us that they would be receptive          to suggestions   for im-
proving    the accuracy of the billings      as they moved into the
first full year of their automated      system. In connection      with
the audits, USPS, OIG and OWCP have entered into a memo-
randum of understanding       to ensure cooperation        and coordi-
nation,    and to minimize    duplication     of efforts   by the CPA
firms.




                                        32
The review by the CPA firm under contract with USPS is limit-
ed to USPS cases. The objectives of the USPS audit are to
determine:

• the validity of the claims data provided   to USPS through   the
  chargeback system;
• the effect of data errors on USPS's ability to accurately pre-
  dict its long-term FECA liability; and
• reasons for the significant decline    in active compensation
  cases, which occurred in 1982.

The objectives   of the review    being performed   for the OIG
are:

• to determine the accuracy of the annual FECA chargeback
  bills to the employing agencies and to reconcile the billings
  to disbursements made through the U.S. Treasury;
• to determine if deficiencies exist in the chargeback system
  and problems in accounting for disbursements        and re-
  ceipts; and
• and to determine whether weaknesses exist in internal con-
   trols of the chargeback system which might provide undue
   opportunities for fraud, waste, and abuse.
The review will contain recommendations       for corrective ac-
tions as appropriate in any of the three above areas.
The auditors under contract to OIG are performing the survey
portion of their review. Results of their survey of the Fiscal
Year 1982 chargeback billings of $820 million indicate that em-
ploying agencies were collectively underbilled    by more than
$30 million. (Fiscal Year 1982 was the year during which the
chargeback system was fully automated. Errors, while they
might be expected during such a transition, should have been
corrected prior to the preparation of the chargeback billing
report for the Fiscal Year.)
One reason for the discrepancies, it appears, is the failure of
payment histories (records of medical and compensation pay-
ments made) to reflect all payments made and recoveries re-
ceived. For example, undercharges resulted when one FECA
district office, working through  the manual compensation


                                 33
payment system, failed to update payment histories to reflect
premiums for health and life insurance benefits. Furthermore,
it appears that withholdings   for insurance benefits were not
transmitted as required to the Office of Personnel Manage-
ment, which manages the Federal life and health insurance
programs. Overcharges resulted when OWCP failed to post all
cash receipts to payment histories. In addition to problems
evident with payment histories, the OIG's CPA survey also in-
dicates that some billings were erroneous because of what ap-
pears to be failure by OWCP to bill employing agencies for all
of the chargeback accounts for which they were responsible.
A number of problems were identified            in reconciling the
chargeback billings for Fiscal Year 1982. During the review, we
presented these problems to both district and national office
OWCP officials, who advised us that they would take correc-
tive action to minimize recurrence during the remainder of
Fiscal Year 1983 and to prevent recurrence thereafter. In addi-
tion, after a briefing to OWCP National Office officials, OWCP
notified all of its district offices of problems which had been
identified, emphasizing systemic problems which were likely
to be present in offices not visited by the auditors, and stating
the need for district offices to follow established procedures
and maintain tight control over chargeback expenses. The au-
ditors are now reviewing the Fiscal Year 1983 chargeback bill-
ings to determine whether the problems have been corrected
and whether additional problems exist. We anticipate report-
ing the results of this audit in the next semiannual report.
Results from the survey have also revealed weaknesses in in-
ternal control systems in FECA district offices, among them:
• functions concerned with the processing         of cash receipts
  were not properly segregated;
• payments made on a claimant's behalf were not always ac-
  curately reflected on the summary forms retained in the
  case file;
• authorizations required for payments above certain limits
  were not always obtained before payments were made; and
• supporting documentation     for transactions   could not always
  be located.


                                34
In addition to the audits being conducted at USPS and Labor,
the Department of Defense is conducting a DOD-wide audit
of FECA administration,      including an analysis of chargeback
listings for selected installations. Defense is analyzing these
listings to attempt to verify claimants as present or former De-
fense employees. The objectives of Defense's audit are to de-
termine whether: (1) internal controls have been established
to prevent fraud and abuse in Defense's FECA program re-
sponsibilities;  (2) management controls are needed to lower
the cost of Defense's FECA program; and (3) opportunities ex-
ist at Defense to bring more long-term disability compensa-
tion claimants back to work to reduce program costs.
Another employing agency auditing the chargeback system is
the Department of Agriculture, which is checking its charge-
back billings for Fiscal Years 1981 and 1982 to ensure that all
injured employees listed in the billings as present or former
Agriculture   employees are or were, in fact, Agriculture em-
ployees. This audit stems not just from concerns over rising
chargeback billings, but also from inadequacies in the agen-
cy's cost distribution  system. These inadequacies prevent Ag-
riculture from determining where, within the agency, injuries
are prevelant, so that individual managers can be apprised of
FECA costs within their span of control, and so that reemploy-
ment and rehabilitation    can be more actively promoted. The
audit has several objectives:
• to develop    a FECA program          data base and reconciliation
  system;
• to establish a FECA program cost distribution          system;
• to provide managers       with   information      through    an auto-
  mated system; and
• to promote,   through   these efforts,     rehabilitation   and reem-
  ployment.
We view the efficient operation of the FECA program as
strongly dependent upon a reliable, accurate chargeback sys-
tem. Efficient operation further depends upon sufficient data
for the employing agencies to allocate FECA costs to responsi-
ble managers within their agencies, and upon resources being
made available to those managers to reduce employee injuries


                                   35
and occupational diseases. Ensuring such integrity and effec-
tiveness is a joint effort between OWCP and the employing
agencies. Several employing agencies, as well as OWCP, are
participating   in audits involving the chargeback system, and
attempting to refine the data base upon which the system de-
pends. We will follow these developments closely, taking par-
ticular interest in the accuracy of OWCP's billings to the indi-
vidual agencies.


Management       Systems
The last semiannual report discussed problems in three man-
agement systems: (1) ADP systems; (2) medical review sys-
tems; and (3) case management systems. We shall address
each of these areas, as well as two other management is-
sues- employee malfeasance and claimant fraud.
ADP Systems--The last semiannual report stated that, in our
view, the automated systems FECA has attempted to establish
have been inadequate. ESA is now acquiring a major new ADP
system for OWCP, termed FECA Level II, to enhance program
management. Currently, ESA is reviewing proposals received
in connection with the acquisition of the FECA Level II ADP
system, and expects to award a contract in December of this
year. Full implementation of the contract will take almost two
years.
Our preliminary assessment of the request for proposals for
the FECA Level II ADP System indicates that successful devel-
opment and implementation      of Level II will improve both
FECA case management and control over disbursements to
claimants and medical providers. We recognize that such an
undertaking is a large and complex project. Our interest is
that the proposed system be fully and successfully developed
and implemented in a timely manner. The risks of delays and
problems will be reduced through the application of and ad-
herence to effective project management principles and tech-
niques.
During Fiscal Year 1984 and throughout  the development cy-
cle for FECA Level II, we will commit audit and technical re-
sources to continuously  review and monitor the progress of


                            m36 m
the project. We expect to be working in close coordination
with the project manager, OWCP staff assigned to the project,
and the project development contractor.
Needed improvements     to ADP aspects of case management
should not await full implementation  of FECA Level II. In that
regard, OWCP is making improvements to the existing Level I
system, including separating bill payment duties involving the
ADP system, adding ADP edits to detect duplicate bills, and
making changes in case management.
Medical Review Systems--As noted in the last semiannual        re-
port, an essential element of the FECA program is a system      of
medical review to determine whether claimants are entitled      to
benefits. Good management of the medical review system         re-
quires that medical advice be readily available and acquired    in
a manner that is both cost-efficient and objective.
In district offices which do not have medical officers on their
staffs, OWCP is dependent upon paid outside medical advice.
However, a draft audit report issued last year noted that
OWCP has not complied with applicable Federal and Depart-
ment of Labor procurement      regulations in its acquisition of
medical advice and rehabilitation    services. Labor's Office of
the Solicitor sustained our position that OWCP, in contracting
for medical and rehabilitation services, must comply with Fed-
eral and departmental procurement regulations.
As a result, ESA requested policy guidance from the Comp-
troller of the Department on the procurement of medical serv-
ices, and on September 29, 1983, obtained a delegation of
authority and responsibility   for procuring medical services
necessary for the adjudication    of FECA claims. ESA is now
preparing implementing procedures.
Case Management Systems--The         last report discussed at
length problems encountered      in OWCP's management of
cases, particularly management of long-term compensation
cases (known as "periodic  roll" cases because of the regular
issuance of compensation payments to long-term FECA recipi-
ents).

OWCP has drafted, and by December 31, 1983, will have im-
plemented, improved  procedures  for the comprehensive


                               37
management of disability cases. These procedures relate pri-
marily to medical management of FECA claims. National Of-
fice staff will conduct training in all district offices in Novem-
ber and December. The procedures clarify a number of prob-
lematic     matters   relating   to FECA claims,          including
requirements     for obtaining   independent     (second opinion)
medical examinations and weighing medical evidence. The
procedures also provide guidance for the consideration              of
emotional conditions attendant to some long-term disability
claims. Most significant is the categorization of disability cases
into three categories according to the severity of the condi-
tion and the nature of the findings relating to the condition.
Specific case management procedures are incorporated               for
each category. We believe that these procedures,               when
adopted and fully implemented,          will assist in improving
OWCP's management of FECA disability cases.
Revisions remain to be made to certain forms, particularly
form CA-1032, the primary regular report of earnings which a
FECA recipient files. Filed annually, the CA-1032 is the long-
term recipient's affidavit of earnings and the status of depend-
ents. The information     requested on the CA-1032 is important
in determining whether the claimant's eligibility for compen-
sation has changed because of the claimant's capacity to
work. Failure to periodically verify earnings and dependent
status can result in overpayments. From an investigative view-
point, the CA-1032 is a key evidential document for prosecu-
tions in FECA claimant fraud cases.

The form now has problems in wording, which we believe can
result in significant overpayments. One of the cooperative ef-
forts between OWCP and OIG is work to revise form CA-1032
and other forms connected with compensation to strengthen
language certifying the truthfulness and completeness of in-
formation the claimant provides on the form. These changes
would facilitate case management and prosecution in future
fraud cases.

One weakness with reporting arises not from the language of
the forms, but from the FECA law itself. An opinion in the
Ninth Circuit of the U.S. Circuit Court of Appeals, holding
that the earnings reporting requirement of FECA does not ap-


                              --38--
ply to totally disabled claimants, has caused us some addition-
al evidentiary problems in that Circuit in attempting to prose-
cute totally disabled claimants who receive earnings as well as
FECA compensation. The difficulty cited in the law in this case
would be solved by the legislative proposal the Department
sent to the Congress.
Another measure which would enhance prosecution of fraud
cases is increasing the severity of prosecution for making false
statements from a misdemeanor to a felony. We have strongly
advocated this legislative change in the past--having          dis-
cussed it in semiannual reports since 1981. A part of this rec-
ommendation is that the willful concealment of earnings from
employment or self-employment       for the purpose of obtaining
FECA benefits be declared a criminal offense. Currently, bene-
ficiaries who falsify data on form CA-1032 are subject, under
FECA, only to misdemeanor        prosecution    and collection   of
overpayments. (It should be noted, however, that felony pros-
ecution against fraudulent claimants may sometimes be pur-
sued under statutes other than FECA.) In addition, the present
law speaks of making false statements only in affidavits and re-
ports. The amendments       recommended       are also contained
within the Department's legislative proposal.
We have made a number of recommendations           for changes to
OWCP's forms, some on which OWCP has already acted. The
most germain recommendations         addressing problems with
forms such as the CA-1032 were made in a memorandum sent
to OWCP on January 24, 1983. In that memorandum,           we rec-
ommended that a certification    of completeness and correct-
ness and a "warning"    be included on all forms that request
information needed for determination     of claims and for justi-
fication for additional compensation.     The "warning"      would
apprise the person providing information on the form of the
possible consequences     of providing    false information,    an-
swering evasively, or omitting information. Since sending that
memorandum,     we have met with ESA and the Office of the
Solicitor on several occasions, and are continuing        work to
complete needed changes to various forms.
Employee Malfeasance--It  is very difficult to detect and pre-
vent employee fraud in the FECA compensation and bill pay-


                             m39m
ment systems. The systems are large, generating 1,354,122
compensation and medical payments in Fiscal Year 1982, and
an estimated 1,395,000 payments in Fiscal Year 1984. Employee
malfeasance detected in several FECA program district offices,
OIG audits and assessments, and Congressional interest have
made ESA aware of the need for mechanisms to detect and
prevent employee malfeasance.
Past semiannual reports have discussed employee malfea-
sance uncovered      in several FECA program district offices
(Philadelphia, New York, Jacksonville, and Washington, D.C.).
These instances have resulted in expanding the review of the
FECA automated bill payment system to cover district offices
in Dallas, Denver, Chicago and Cleveland. The purpose of this
review of the automated bill payment system is to determine if
internal controls are adequate to prevent the payment of
fraudulent    medical claims and to determine    if fraudulent
claims, once made, can be detected. We are giving special
emphasis to determining whether control weaknesses in the
bill payment system reported in the loss vulnerability assess-
ment--a    report issued several years ago--have     been cor-
rected. An important feature of the current audit is the mail-
ing of letters to selected FECA claimants to confirm whether
they have received reimbursements    from FECA for services for
which they had already paid their medical providers.
ESA is undertaking efforts to prevent employee malfeasance.
In addition to the enhancements to the ADP systems, men-
tioned earlier, ESA's Internal Control Unit is conducting stud-
ies of operations in all FECA district offices except Hawaii.
These reviews are concentrated on OWCP's compliance with
recommendations      made in two major reviews of FECA pro-
gram operations issued in 1980 and 1981. The reviews were
still being conducted at the end of the reporting period, and
we have received no results as yet.
Finally, OWCP is planning to hold a two-day fraud awareness
training course for assistant regional administrators in January
1984. The course results from OIG recommendations         for in-
creasing the sensitivity of program managers to fraud detec-
tion and prevention. OIG is assisting in the development and
presentation of this training course.


                               4O
Claimant Fraud--A final concern in the area of program man-
agement is with claimant fraud--a continuing problem for the
FECA program. Our main effort to help prevent claimant fraud
during this reporting period was to send a "warning letter" to
selected FECA claimants identified in an OWCP computer
crossmatch. OWCP, on our recommendation, is performing a
pilot crossmatch in selected states. The match is of unemploy-
ment insurance rolls and wage data with those portions of the
FECA rolls containing information on claimants who are tem-
porarily totally disabled. The states involved are Pennsylvania,
Missouri,    New York, and Ohio. The purpose              of the
crossmatch is to determine if the claimants are reporting all
wages to OWCP as required (important in the FECA program,
since the receipt of earned income can alter a claimant's sta-
tus within the FECA program). If the pilot is successful, OWCP
will consider additional periodic crossmatches.

 Results from the Pennsylvania crossmatch were the first to be
reviewed. Of the 1,296 FECA recipients in Pennsylvania who
were included in the crossmatch, 77 "raw hits" were iden-
tified as receiving both FECA benefits and earned income.
OWCP is currently reviewing each of the claimants' files to de-
termine whether the file contains current wage data, and will
take appropriate actions. Instances of failure to report earned
income will be referred to the Office of Investigations.

In conjunction with OWCP's crossmatch, OIG is sending a
"warning letter" to selected FECA claimants residing in Penn-
sylvania. The "warning letter" reminds claimants of their obli-
gations to report wages and informs them of the crossmatch.
The letter also instructs them to contact OWCP if, for any rea-
son, they failed to report any earnings or benefits which could
affect their FECA compensation.   If the "warning letter" results
in a significant number of claimants reporting wages, we will
expand the project to other states in which we conduct
crossmatches.




                            --41 m
                        New Activities

Survey of FECA Third Party Liability Case
Processing
 FECA claims arising from accidents frequently involve third
parties who could be responsible for paying damages to the
injured Federal employee, yet recoveries are not always ob-
tained from liable third parties. A 1979 study by the General
Accounting Office (GAO) reported that substantial recoveries
could be made if the Department of Labor were to take more
aggressive action against third parties. We performed a survey
to determine if OWCP had improved their third party recovery
process and if additional improvements    might be needed.
Recoveries through third party action can be substantial. The
1,003 third party cases settled in Fiscal Year 1982 yielded re-
coveries of approximately $7.2 million, up from $2.25 million
in Fiscal Year 1977. Our survey indicates that OWCP can make
additional improvements     in the identification and tracking of
third party liability claims, resulting in further increases in
third party recoveries. We concluded that collections might
be increased if the tracking system included sufficient detail in
case status codes to identify and report automatically those
cases requiring action in a given month.
Our survey also demonstrated that a 1980 agreement between
OWCP and USPS, providing for the tracking and pursuit of
third party claims, has yielded significant results. Since the
agreement, the number of third party liability cases resolved
at USPS has risen 547 percent, and the amount of recoveries
has risen 220 percent. While not all of these increases can be
attributed directly to the agreement, we believe that the ap-
proach taken in the USPS-OWCP agreement merits considera-
tion of similar approaches by other employing agencies.
Our survey also discovered problems_in._OWCP's information
collection system for third party liability cases, as well as prob-
lems with the use of resources for case tracking and follow
up. We recommended, and OWCP agreed to: (1) expedite en-

                             m42 m
hancements of the existing ADP system to improve manage-
ment of third party liability cases; (2) provide monthly summa-
ries of third party case activities; (3) upgrade standards for
providing the Office of the Solicitor with information on dis-
bursements; (4) establish third party liability follow up as a
primary performance standard for claims examiners; and (5)
revise the form letter sent to claimants to emphasize the ad-
vantages to the claimant of pursuing a claim against a third
party.
We also found that disputes over the Government's recovery
rights and the amounts recoverable have resulted in substan-
tial delays in collecting funds and closing third party cases.
Such problems can only be solved by changes to the FECA
statute itself. The legislative package the Department for-
warded to the Congress includes a number of changes which
would facilitate the pursuit and resolution of third party liabili-
ty claims.


FECA/OPM Crossmatch
The previous     semiannual   report mentioned      that we had
started, in conjunction with the Office of Personnel Manage-
ment (OPM) and OWCP, to verify the OIG crossmatch of
FECA and OPM recipient records to isolate instances where
individuals are concurrently receiving FECA disability or death
benefits and OPM retirement or survivor annuities. FECA pro-
hibits the receipt of dual benefits when the benefits involved
are for wage loss, and also prohibits the concurrent receipt of
FECA benefits with a civil service annuity or civil service death
benefits.

We recorded a crossmatch "hit" when we found, based on
OPM's data for April 1982, that an individual received OPM
benefits when there was also a history of payments to that in-
dividual under the FECA Automated Compensation       Payment
System during the prior six months (November 1981-April
1982). Both OWCP and OPM officials worked with us to re-
solve each case.

This initial listing was then purified, and a total of 1,124 raw
"hits" was identified for detailed review. Further examination


                             --43 m
by OWCP and OPM officials found overpayments in 722 in-
stances. The remaining cases were resolved due to miscoding
errors, resulting in no matches or overpayments.
To date, either OWCP or OPM has determined overpayments
for 402 cases totaling about $6.79 million. OWCP and OPM of-
ficials noted, and we agreed, that corrective action, in terms
of stopping overpayments, had been initiated as a matter of
routine management oversight prior to the date we provided
them with a final list of match results. Corrective actions were
initiated in about 12 percent of these cases between the time
we notified OWCP and OPM officials of the existence of a
problem and the time we provided them with a final printout.
Recovery actions by either OWCP or OPM are still pending on
some of these cases. Results for the remaining 320 cases are
still pending. OWCP and OPM officials are continuing their
work to determine whether any overpayments occurred.
In order to ensure resolution and collection of noted overpay-
ments, OWCP has issued instructions to its district offices to
require monthly reports until action on all cases is complete.
Following resolution of the remaining 320 cases, OWCP and
OPM will conduct a joint review, with OIG assistance, to de-
termine why the duplicate payments occurred and what inter-
nal controls need to be implemented to preclude the situation
from recurring. Also, we plan to conduct periodic reviews of
the noted corrective actions to ensure complete resolution.
In conclusion, bringing about reform to a program which has
historically been beset by severe problems is a massive under-
taking requiring simultaneous action on several fronts. Many
of the activities discussed in this report mark progress. How-
ever, we remain concerned in certain areas, and intend to
monitor OWCP's efforts at improvement.      Finally, we urge the
Congress to give the Department's proposed amendments to
FECA close attention, and to enact the proposal.




                               44
Departmental Management
This section covers OIG work related to Department-wide
administrative    management areas including activities within
the Office of the Assistant Secretary for Administration      and
Management as well as within the program Agencies. Increas-
ing its emphasis on those functions and activities which tran-
scend all Agencies of the Department, the OIG has directed
substantial audit efforts to areas which will improve manage-
ment controls. During this reporting period, five reports were
issued covering ADP management, cash management through
letters of credit, consultant service awards, payroll activities,
and year-end spending. In addition, the OIG has continued its
work in implementing      OMB Circular A-123, Internal Control
Systems, and has several audits underway on Reform '88 initia-
tives including audits of debt collection activities, collection
and deposit of funds, and lease versus purchase of property.


ADP Management
 OMB Circular A-71 assigns to the heads of Federal agencies
the authority and responsibility for the effective and efficient
management of ADP activities. Because the Department's use
of ADP is an extensive and integral part of its operations, we
conducted a survey of how the Department manages and
oversees its ADP activities. The findings indicated serious defi-
ciencies in the Department's       management and oversight of
ADP. The problems included such serious omissions in basic
management functions so as to adversely impact on the Secre-
tary's ability to certify the adequacy of the Department's inter-
nal control systems, as required by the Federal Managers' Fi-
nancial Integrity Act of 1982.
The survey indicated that the Department's ADP management
philosophy impaired its ability to ensure effective and efficient
use of ADP resources. Although the Directorate of Informa-
tion Technology is charged with providing coordination        and
leadership .in the ADP area, it has narrowly defined its opera-

                             m45 m
tional role, thereby leaving authority and responsibility for
ADP management in the hands of individual Agency program
managers. This has allowed the program managers to operate
with virtual autonomy. Therefore, in practice, ADP manage-
ment responsibilities  are widely dispersed, with few tools
available for Department-wide    ADP management. This ap-
proach prevents the Department from exercising quality con-
trol over ADP management across Agency lines.
We found that the Department was lax in four major areas.
First, existing ADP policies, procedures and standards did not
adequately reflect current organizational   responsibilities and
recent Federal requirements.     The need for a more compre-
hensive and formalized approach to standards was accentu-
ated by the fact that only one Agency, the Bureau of Labor
Statistics, maintained a systems standards manual.
Second, the Department was not providing oversight or direc-
tion in the management of ADP hardware and software. It
lacked an inventory of its ADP resources and, therefore, the
Department could not ensure that those resources were ade-
quately planned, coordinated, controlled, and utilized.
Third, there was no structured framework for long-range ADP
planning. This void resulted in increased ADP resource acqui-
sition costs and, because ADP systems are such an integral
part of program operations, the lack of planning had a nega-
tive overall impact on the costs and effectiveness of those
operations.
Finally, the Department had not provided adequate protection
of ADP facilities and data through appropriate security meas-
ures. Although the responsibility   for developing and imple-
menting computer security programs had been delegated by
the Assistant Secretary for Administration    and Management
(OASAM) to the Directorate of Information Technology, we
were unable to identify formal departmental policies and pro-
cedures implementing    such a program.
The conclusions drawn from the survey were reinforced by a
recommendation   contained in a report by the President's Pri-
vate Sector Survey on Cost Control.     This report recom-
mended "...that  the Secretary of Labor direct the Assistant


                              46
Secretary for Administration and Management to exercise cen-
tral control over the acquisition and management of all ADP
equipment, services, and personnel." It further cited the need
to develop an ADP plan, define the desired ADP environment
and coordinate ADP procurements.
In our report, we recommended     that the Assistant Secretary
for Administration   and Management hold the Directorate of
Information    Technology accountable   for providing   strong
leadershi p in the management of ADP by requiring it to:
• issue current policies and procedures which accurately re-
  flect organizational  responsibilities governing the manage-
  ment of ADP resources;

• develop an organizational  structure to ensure     that those
  policies and procedures are implemented; and
• develop an inventory   of the Department's   ADP resources.
In concurring with these recommendations,       the Department
issued draft administrative policies which more clearly reflect
and define organizational responsibilities as they apply to ADP
management. OASAM also made a commitment to try to in-
crease resources for ADP oversight. Additionally, the Director-
ate of Information Technology has indicated that a directory
of software resources has been issued and that the directories
of hardware resources and automated systems are scheduled
to be completed in March 1984.


Cash Management          Through Letters of Credit
As part of a project sponsored by the President's Council on
Integrity and Efficiency, we reviewed cash advance funding by
letter of credit (LOC) in the Department of Labor for Fiscal
Year 1982. The project, coordinated by the Inspector General
of the Department of the Treasury, was designed to evaluate
cash management controls and the administration        and moni-
toring of the various letter of credit funding techniques.
The review was performed in the National Office and several
Regional Offices of the Employment and Training Administra-
tion (ETA), the Mine Safety and Health Administration


                            q47--
(MSHA), and the Occupational    Safety and Health Administra-
tion (OSHA).

Funds advanced to finance Federal grants and other programs
are a significant part of the Federal budget and advances of
cash from the U.S. Treasury can have a substantial impact on
the amount of Treasury earnings and costs. For instance, in
Fiscal Year 1982, letters of credit in ETA, MSHA, and OSHA to-
taled about $6.4 billion. Any portion of this funding that was
advanced in excess of immediate needs resulted in substantial
interest costs to the Federal Government as a result of addi-
tional borrowing.    Federal policy requires that funds be ad-
vanced to recipients only as the funds are actually needed and
the letter of credit system is one of the methods used to en-
sure that this is accomplished.
Although ETA, MSHA, and OSHA had internal control and
monitoring systems for management and administration of let-
ters of credit, the systems were not functioning   as intended
because onsite monitoring of advance funding by MSHA and
OSHA was not adequate, recipient information was not ade-
quately monitored by OSHA, and the Treasury letter of credit
payment    methods    were ineffective  in controlling     cash
balances.

Desk reviews and monitoring     of financial reports by MSHA
and OSHA were insufficient to ensure the accuracy of finan-
cial information provided by LOC recipients. Most visits to
LOC recipients stressed program performance reviews, not fi-
nancial and cash management reviews. Therefore, recipients
seldom had their letter of credit practices evaluated and the
Agencies were not able to adequately ascertain if excess cash
was kept on hand by the recipients.
The Treasury Department's disbursing system requires cash
status information with each request for payment. This pro-
vides an additional degree of evaluation before funds are re-
leased. However,     the requirement    to review    recipient
supplied cash information  prior to disbursing funds did not
prevent the accumulation of excessive cash balances.
The major weakness in this system was the excessive reliance
placed upon recipient   supplied information.  Requests for


                            --48 m
drawdowns did not provide enough information for the Treas-
ury or the approving Agencies to make financial decisions on
drawdowns.

An additional disadvantage of these requests was the lack of
prepayment approval by the granting Agency, resulting in an
"after-the-fact" determination    of payment approval by the
Agency. If excessive advances were made, the Agency had to
take action to change the method of payment or recover the
excess funds, resulting in additional costs to the Agency.
Significant efforts have been made by ETA to control pay-
ments on letters of credit. ETA installed an automated cash
management system in 1982 which extracted key elements
from the drawdown requests to determine the total cash-on-
hand, including advances and any excess cash. Any excess
cash was then to be verified. ETA reports that this new system
is a success and will continue.    ETA reports that a total of
$121.6 million was identified as a result of this effort by June
30, 1983.
Based on the review, we recommended that MSHA and OSHA
ensure that onsite monitoring      of letter of credit recipients'
cash management systems be increased to prevent excessive
cash advances and balances from occurring. We also recom-
mended that procedures for administering          and monitoring
letters of credit be finalized and implemented, where appro-
priate. The Agencies concurred with the report and began im-
plementing the recommendations.       The Department informed
the OIG that, in its effort to implement Reform '88 Cash Man-
agement improvements,         Treasury Department      procedures
have been adopted for Fiscal Year 1984, for wire transfer of
funds under letter of credit. This procedure allows the Depart-
ment to speed up fund transfers to meet the immediate cash
needs of grantees in various Agency programs. A follow-up re-
view will be conducted to determine the effectiveness of this
new system.

Consultant Service Awards
We evaluated the Department's progress in establishing effec-
tive management controls and improving the accuracy and


                             --49--
completeness of the information provided to the Federal Pro-
curement    Data System (FPDS) on contracts for consulting
services for Fiscal Year 1982. We had reviewed management
controls in previous fiscal years and, in November 1981, we is-
sued an audit report disclosing that the dollar value of con-
sultant awards reported to FPDS differed significantly from de-
partmental    accounting     totals  and recommended       that
procedures be developed to prevent future errors. Manage-
ment implemented     changes which they thought would pre-
vent future errors.

The latest review for Fiscal Year 1982 indicated that manage-
ment has made a good effort to comply with OMB require-
ments to control consultant award actions. For instance, the
Department's    published guidelines exceeded OMB require-
ments in that they applied management controls and reviews
not only to consultant awards, but also to management and
professional services and special studies.

Unfortunately,   the extension of controls over these related
services awards resulted in misunderstanding         and confusion
throughout the Department as to what constituted the defini-
tion of "consultant."    As a result of this confusion, a number
of consultant awards did not receive the required review by
the Department's      Procurement    Review Board. In addition,
there were material inaccuracies in consultant data reported
to the Federal Procurement Data System and recorded on de-
partmental accounting records.

We recommended        that the Department  strengthen certain
management and reporting controls, clarify the guidance con-
tained in the Department of Labor Manual Series, and provide
training to both the procurement     and accounting staffs re-
garding the processing of consultant awards. In addition, we
recommended that OMB's Office of Procurement Policy clari-
fy the definition of "consultant."

We discussed lhe findings with the DOL Procurement Execu-
tive and other management officials and found them in gener-
al agreement with our findings and recommendations.    In fact,
several of the recommendations     incorporated in the report
were suggested by management during our discussions.


                               50
We have recently begun the audit of       Fiscal Year 1983 Con-
sultant Service Awards, which will also    include an evaluation
of how effectively the Department has     implemented the cor-
rective actions stemming from the 1982    audit.


Payroll Activities

During this reporting period, we initiated survey work in
payroll activities. As a result of the survey, we noted two areas
which warranted immediate action, severance pay and multi-
ple payroll payments.
Severance Pay--In Fiscal Year 1982, the Department      had a
massive reduction-in-force which necessitated severance pay-
ments to hundreds of employees. Because of the many pay-
ments made to the laid off employees, we conducted a survey
to determine whether variances existed between the sever-
ance pay computed by departmental      personnel offices and
the actual amount paid to affected employees.
We examined over $1.1 million of severance pay entitlements
for 263 persons. The review disclosed 20 overpayments to-
taling $12,716 and 14 underpayments totaling $21,034. The un-
derlying cause of overpayments was the remittance of manual
payments by the payroll office to ensure that recipients would
receive their initial severance pay checks in a timely manner.
However, when the computed severance pay was incorpora-
ted in the computerized     payroll system, it appeared that ad-
justments were not made to reflect the manual payments.
With regard to underpayments,       in most instances, documen-
tation could not be located in the payroll office to substantiate
the reason for termination of a recipient's severance pay prior
to remittance of their full entitlement.

We recommended that each Agency's personnel office recom-
pute the severance pay of those recipients with variances;
recompute the severance pay of a sample of recipients with-
out variances; determine the status of the recipients with vari-
ances; and, in coordination    with the payroll office, seek
recovery of overpayments    and make restitution      of under-
payments. Following these recommendations,        the Agencies


                             m51 __
notified us that severance pay for those employees affected
had been recomputed. Those recipients who were underpaid
have received the proper amounts that were due to them.
Those persons who were overpaid have been notified and col-
lection action has been instituted, where appropriate.
Multiple Payroll Payments--In   this survey, we found that
there were approximately 350 persons, in 1980, 1981 and 1982,
who appeared to receive multiple payments during the same
pay periods.
We randomly selected and reviewed documentation          sup-
porting twenty-six of these payments and found eight dupli-
cate payments or overpayments totaling $11,178. In addition,
we found five duplicate payments totaling $7,048 which had
been identified and recovered by the payroll office.
We determined that these duplicate payments occurred for
similar reasons to those found in the Severance Pay Survey.
Namely, controls were inconsistently implemented to ensure
that manual payments were incorporated in the computerized
payroll system.
As a result of the review, we recommended       that the Office of
Accounting:
• take collection action for the identified   overpayments;
• review the other cases that we identified, take collection ac-
  tions where appropriate, and notify us of the results; and
• implement internal control procedures such as periodically
  reviewing a computer print-out of multiple payments in a
  single pay period to see if duplicate payments continue to
  occur.

Agency officials agreed with the findings and have begun to
implement the recommendations.       The Office of Accounting
has reviewed the records of the eight overpayments/duplicate
payments and made the necessary adjustments or instituted
collection action. Staff has been assigned to determine the va-
lidity of the other potential overpayment cases and payroll
training material has been updated to emphasize the impor-
tance of reviewing the earnings history of an employee before
making a manual payment. Finally, the Directorate of Informa-


                               52
tion Technology has been requested to provide the payroll of-
fice with a quarterly computerized  listing of multiple pay-
ments made to an employee within the same pay period.
The OIG will follow up with the Office of Accounting to en-
sure that all recommendations are fully implemented and that
overpayments are collected.


Year-End Spending
We evaluated the adequacy of controls implemented by the
Department in Fiscal Year 1982 to eliminate unnecessary year-
end spending and to determine if obligated funds pertained
to services required only during that Fiscal Year. Specifically,
we determined if spending was in accordance with the Annual
Advance Procurement Plans (AAPP) which are developed by
the various Agencies at the beginning of each fiscal year. The
review also determined if proper approvals were obtained and
if the obligations were adequately supported. With limited ex-
ceptions, the review showed that the Department made signif-
icant efforts in managing year-end spending.
The review disclosed that three contracts awarded by the
Women's Bureau, totaling $300,000, and two purchase orders
for $58,783, awarded by the Employment and Training Admin-
istration (ETA), were not included on the AAPP as required. In
addition, ETA and the Bureau of Labor Statistics in the Boston
region purchased ADP equipment        valued at $106,666 and
$13,217, which did not receive proper approval.
Although the procurement requests for the Women's Bureau
contracts did go through the Procurement Review Board and
received the proper approvals, modifications      of the AAPP
were not completed to incorporate these procurements        de-
spite departmental   policy. The Agency indicated that the
omission of the procurements      from the AAPP was an over-
sight. We have received written assurance that, in the future,
when a noncompetitive       procurement   not contained in an
Agency's AAPP is submitted for approval to the Procurement
Review Board, the procurement approval will also cover the
change to the AAPP.


                              53
The review of purchase orders in ETA processed through
OASAM showed that ETA bought carpeting totaling $58,783
which was not on their AAPP in Fiscal Year 1982. Although ETA
had included this type of purchase request on their Annual
Work Plan in previous years, they never had enough money to
make the purchase. Because they expected limited resources
in Fiscal Year 1982, they did not include any provision for the
purchase of carpeting on their AAPP for that year. When the
late receipt of ETA's Fiscal Year 1982 supplemental appropria-
tion provided the additional resources, the purchases were
made and the modification     of the AAPP was not completed.
Closer attention to the requirements of departmental proce-
dures and their AAPP will prevent similar omissions in the
future.

Finally, improper interpretation  of an OASAM memorandum
contributed to the purchase of ADP equipment in the Boston
Regional Offices without proper approval. A clarifying memo-
randum which has been sent to all Regional Offices should
prevent a recurrence of this situation.


Refor     '88

OIG has continued to take an active role in the planning and
implementation     of immediate and long term reviews covering
Reform '88 initiatives.

Included in this work is a review of debt collection proce-
dures and activities of MSHA, OSHA, and ESA's Black Lung
program. Also, we are participating       in a Government-wide
study of the collection and deposit of funds, which is spon-
sored by the President's Council on Integrity and Efficiency.
Another area in which resources have been committed is a
physical inventory of the Department's telephone equipment
to determine if company billings are correct and if there are
unjustified telephone instruments.     In addition, survey work
recently started for potential audits under Reform '88 covering
the areas of lease versus purchase of equipment, and billings
by external agencies for airline ticketing, other vendors and
GSA provided services.


                           --54m
Finally, during this reporting period, we met with departmen-
tal officials responsible for the various Reform '88 initiatives to
develop ideas and suggestions for joint and individual proj-
ects. A joint economy         and efficiency   review covering
Agencies' management of assets such as space, travel, and
property has resulted from our meetings. The review guide is
being assembled by OIG and Agency personnel. Work on this
project is scheduled to begin during the first quarter of Fiscal
Year 1984.


Internal Controll

As mentioned in the last semiannual report, we have been
heavily involved in the implementation   of the Department's
internal control program, mandated by OMB Circular A-123,
Internal Control Systems, and the Federal Managers' Financial
Integrity  Act of 1982. Our role in the process is multi-
dimensional and involves three types of activities:
• The Inspector General, as a member of the Department's
  Internal Control Policy Board contributes to the overall poli-
  cy and direction for the program's implementation.
• OIG staff will assist the Board by providing     technical   sup-
  port, training, guidance and monitoring.
• The OIG will independently,  through its audit program, en-
  sure quality and consistency in the internal control review
  and reporting process and ensure that all identified weak-
  nesses are addressed.

During this reporting period, we provided training and an in-
ternal control review guide to all departmental internal con-
trol officers and reviewers. Also, as part of the overall audit
resolution and follow-up system, we are tracking DOL data re-
lated to internal control weaknesses and reviews. Later this
year, we will be developing an assessment of the Depart-
ment's internal control program for the Secretary prior to his
certification as required by the Federal Managers' Financial In-
tegrity Act of 1982.




                                55
                          PART II

      SUMMARY            OF OIG ACTIVITIES

Office of Resource Management                             and
Legislative Assessment
The Office of Resource Management and Legislative Assess-
ment (ORMLA) supports the OIG by fulfilling several of the
statutory requirements of the Inspector General Act; coordi-
nating OIG-wide initiatives; and providing leadership in the
areas of policy development,   internal evaluation, external re-
lations,   administrative    management      and information
resources.

Two aspects of ORMLA work during this reporting period are
highlighted in this report: our analysis of existing and pro-
posed legislation and our acquisition and utilization of micro-
computers.


                  Legislative Assessment
 Section 4(a) of the Inspector General Act of 1978 requires that
 the Inspector General review existing and proposed legisla-
 tion and regulations, and make recommendations     in the semi-
 annual report concerning their impact on the economy and
 efficiency, and on the prevention anddetection    of fraud and
'abuse in departmental programs.
Mindful of this responsibility and its importance, particularly
from the perspective of preventing fraud, waste and abuse in
Agency programs and operations, we have reviewed a consid-
erable number of proposed bills and regulations during this
six-month period. Several of the more significant issues of
concern to the Office of Inspector General are described
below.


                             --57--
• Inspector General Act Amendments     of 1983 (H.R. 3625)
  During this reporting period, the Inspector General Act
  Amendments of 1983 were reviewed and supported. How-
  ever, we strongly recommended      to OMB that Section 6 of
  the Inspector General Act of 1978 be amended to exclude
  the Office of Inspector General from the provisions of the
  Paperwork Reduction Act. Specifically, we proposed that af-
  ter section 6(c) be added the following:
      (d) Activities and operations of the Office of In-
      spector General shall not be subject to the Paper-
      work Reduction Act.

 This amendment       would provide an exclusion similar to
 that already provided for the activities and operations of
 the General Accounting Office and would resolve an issue
 raised during this reporting period that is of grave impact
 to this OIG and, we believe, to the entire Inspector Gener-
 al concept, as formulated in the enabling legislation. This
 critical issue is the need for clarification of the Paperwork
 Reduction Act vis-a-vis the Inspector General Act of 1978.
 The specific issue is whether OIG audit guides are covered
 under the Paperwork Reduction Act. Audit guides are the
 documents     that provide background       information, audit
 objectives and steps to achieve those audit objectives.
 These audit guides serve as a checklist of items the auditor
 needs to review during the course of the audit.
 The question of whether audit guides are covered under
 the Paperwork Reduction Act received considerable atten-
 tion in the OIG community, even as OMB was drafting the
 implementing    regulations for that Act. At that time, OMB
 sought to include audit guides under the "collection     of in-
 formation"   provisions of that Act. As a result of the strong
 concerns raised by the IG community,         OMB agreed to
 omit the reference to audit guides in the final regulation.
 Nevertheless, as a result of a recent disagreement between
 the OIG and OMB over the audit survey guide related to
 the Job Training Partnership Act program, which is dis-
 cussed in the ETA section, OMB took the position that this



                               58
  guide was covered under the provisions of the Paperwork
  Reduction Act and subject to OMB clearance.

  The impact of OMB's interpretation    on IG operations, the
  Inspector General Act and the concept of an independent
  audit function is immense. The power to clear an audit
  guide carries with it the power to determine the content of
  an audit as well as the thrust of an audit and--ultimate-
  ly-whether    the audit can be conducted at all.
  In our view, such OMB review and approval of OIG audit
  guides is inconsistent with Congressional  intent in estab-
  lishing independent   OIGs with the responsibility  to plan
  and conduct audits and investigations     without   outside
  pressures or improper constraints. Also, we believe it is in-
  consistent with GAO standards on organizational        inde-
  pendence.

  This apparent conflict between the IG Act and OMB's in-
  terpretation of the Paperwork Reduction Act must be re-
  solved. IGs cannot, in good conscience,     submit audit
  guides to OMB for clearance and continue to remain inde-
  pendent and in accord with the concept of the IG Act or
  the GAO audit standards.

  Of course, we would support other vehicles for accom-
  plishing our recommendation   to exclude OIGs from the
  requirements of the Paperwork Reduction Act.

• Uniform Single Financial Audit Act of 1983 (S.1510)

  We are not in support of this bill, which would establish
  uniform single financial audit requirements      for state and
  local governments,    non-profit organizations and other re-
  cipients of Federal assistance. This bill is aimed at provid-
  ing for more efficient use of audit resources by recipients
  of Federal assistance. However, Attachment P of OMB Cir-
  cular A-102 serves a similar purpose by providing           for
  organization-wide   audits for state and local governments
  and Indian tribal governments      that receive Federal assist-
  ance. Since OMB Circular A-102, Attachment P, is still be-
  ing implemented,    any legislation should be held in abey-



                                59
  ance until   the results   of Attachment   P provisions   can be
  evaluated.

  We also feel that the bill was weakened            by: (1) not
  incorporating    the GAO Standards for Audit of Governmen-
  tal Organizations,    Programs, Activities and Functions;   (2)
  not providing criteria to evaluate the appropriateness       of
  grantee expenditures     in relation to grant purposes and re-
  strictions;   and (3) not including effective or specific re-
  porting requirements to the cognizant Federal agency.
® Authorization of Appropriations      for the Office of Govern-
  ment Ethics (S.461)

  We strongly opposed this bill, which would extend the au-
  thorization of appropriations  for the Office of Government
  Ethics for another five years, because one of its provisions
  would grant authority to the Director of the Office of Gov-
  ernment Ethics to use the OIGs to investigate possible
  conflicts of interest and to conduct audits requested by
  the Director.
  This would result in the diversion of OIG resources from
  the statutory responsibilities contained   in the Inspector
  General Act of 1978 and the dilution of the authority of the
  IG to determine how OIG resources are to be used.
  We recommended      that Section 6 of the bill be deleted     or
  reworded as follows:

      The authority of the Director under this section in-
      cludes recommending       to Inspectors General that
      certain investigations and audits concerning possi-
      ble conflicts of interest be conducted.

• The Program Fraud and Civil Penalties Act of 1983 (S.1566)
  This bill would stengthen mechanisms for the recovery of
  civil penalties and assessments for false claims involving
  Federal grants, contracts and programs.
  While we supported the intent of this bill, we suggested
  some changes. Although we agree that cases involving very
  large amounts of money should be pursued through the ju-
  dicial process, we are concerned that the $100,000 limit


                                 60
  specified in Section 806(F) could result in some cases not
  being pursued through either administrative       or judicial
  methods, if limited Justice Department     resources meant
  that a case had to be declined. We suggested that the pro-
  posed statutory ceiling be eliminated and replaced with
  more flexible criteria or limits set by Justice Department
  regulations.
  We also suggested that the "reckless disregard" standard
  be added to Section 804(b). This would strengthen the sec-
  tion by covering constructive knowledge, as well as actual
  knowledge, and would be consistent with both criminal and
  tort law, as well as the False Claims Act.

  We also believe that consideration    should be given to the
  option of returning recovered funds to the related pro-
  gram's appropriation,     rather than to the U.S. Treasury,
  since this might increase agencies' incentives to aggressive-
  ly press for collection of penalties.
• Consulting Reform and Disclosure Act of 1983 (H.R. 1882)
  We opposed      this Act, which would impact on provisions of
  the Inspector    General Act of 1978. Section 101(d) gives OPM
  the authority    to suspend the authority of agencies to ap-
  point experts    and consultants, a provision in conflict with
  the Inspector    General Act.
  Similarly, Section 101(g)(1) would also limit the autonomy of
  the Inspectors General by allowing the head of each agency
  to establish procedures for review and approval of ap-
  pointed    experts or consultants    used by the Inspector
  General.

  We also opposed Section 102, which would eliminate the
  authority of the Inspectors General to appoint any individu-
  al as an expert or consultant.
  Finally, we opposed section 202(b), that would require an
  agency to notify the appropriate OIG whenever a contract
  modification increased the amount of a contract by $25,000.
  Our oppositions is based on the fact that the section does
  not specify what the OIG is to do with the information, nor
  does it give the OIG authority to approve or disapprove the


                                 61
  modification.   Additionally,  since contract modifications are
  one stage of the procurement and contract administration
  process, the proposal is unclear as to why the OIG should
  be specifically   involved    in this particular stage of the
  process.

• Law Enforcement Authority
  An issue that continues to be of importance to the OIG is
  the need for law enforcement authority for Special Agents
  in the Office    of Organized     Crime and Racketeering
  (OOCR). Law enforcement authority includes the power to
  make arrests, administer oaths to witnesses, carry firearms
  and execute search warrants. A legislative remedy is re-
  quired to grant this authority, and previous semiannual re-
  ports document that it is essential that our Special Agents
  be afforded this full law enforcement authority.
  Earlier hearings held by both the Senate Committee on La-
  bor and Human Resources and the Senate Permanent Sub-
  committee on Investigations examined whether the OOCR
  has sufficient powers to effectively carry out its broad man-
  date to rid unions and union-administered    pension plans of
  the domination and influence of organized crime and labor
  racketeers and whether the lack of law enforcement powers
  limits our effectiveness and endangers Special Agents.
  Although most of those who testified were in support of full
  law enforcement authority for our Special Agents, the Ad-
  ministration's position--as voiced by the Department      of
  Justice--was not in support of this bill.
  The absence of full law enforcement authority has required
  Special Agents to request assistance from other Federal
  agencies to carry out many of their most basic duties. Such
  solicitation of assistance from other Federal agencies has
  been time-consuming,        and requires     that these other
  agencies readjust their priorities and staff assignments to be
  available to provide law enforcement services as needed.
• Labor Management Racketeering Ac| of 1983 (S.336)
  We continue   to strongly support the passage of this bill
  which would   contribute  greatly to our program of com-


                             w62--
  bating organized crime. This bill would (1) add to and clarify
  the list of crimes which disqualify convicted persons from
  holding positions of trust with employee benefit plans, la-
  bor organizations    or corporate    labor-management      rela-
  tions; (2) increase the period of debarment from five to a
  maximum of ten years; (3) provide for debarment of guilty
  persons from their positions of trust at the time of their
  conviction rather than at the end of the appeals process; (4)
  increase the penalties for violations of the Taft-Hartley Act;
  and (5) clarify certain investigative responsibilities   of the
  Department of Labor.
  The intent of this bill has the support of the Administration
  and the AFL-CIO. During this reporting period, the Inter-
  national  Brotherhood      of Teamsters and its president,
  Jackie Presser, softened their opposition to the legislation
  and indicated that, with a change of some language, the
  Teamsters could wholeheartedly      endorse the bill.
  Although S.336 passed the Senate, by a 75-0 margin, on
  June 20, 1983, there appears to be little activity within the
  House Subcommittee     on Labor-Management        Relations to
  move this important legislation forward.
• Longshore and Harbor Workers' Compensation Act Amend-
  ments of 1983 (S.38)
  We support this bill, which was passed by the Senate on
  June 16, and referred to the House Committee on Education
  and Labor, Subcommittee        on Labor Standards, on July 1.
  This bill, a virtual copy of S.1182 (which passed the Senate
  but failed in the House in the 97th Congress), would bring
  about substantial program reforms, including:          tightened
  criteria for establishing permanent disability; debarment au-
  thority against fraudulent medical and legal service provid-
  ers; requirements that claimants file reports of earnings; in-
  centives for rehabilitation and reemployment;     requirements
  for the licensing       of representatives    for claimants     in
  prosecuting a claim; and limitations on death benefits. The
  Bill would address many problems brought to light by GAO
  reports and Senate committee hearings, which have indi-
  cated that significant weaknesses in the current law have
  contributed to fraud, including fraudulent permanent injury


                                 63
  claims, fraudulent medical practices and concealed earnings
  while receiving benefits.
• Federal Employees' Compensation Improvements              Act of
  1983 (Department of Labor proposal)
  In our section on the Employment Standards Administra-
  tion, we discussed our support for the Department of La-
  bor's proposal for legislative amendments to the Federal
  Employees Compensation Act (FECA). The proposal would
 enact provisions to implement a number of recommenda-
  tions we had made, would apply benefits under the Act
  more equitably, and would significantly enhance manage-
  ment of the FECA program. We urge that the Congress in-
  troduce    the Department's    proposal and give it close
  attention.

• Reducing Error in Income Support Act of 1983 (H.R. 926)
  We support this bill, which seeks to prevent fraud and
  overpayments   in various welfare programs by requiring
  state unemployment   agencies to collect individual wage in-
  formation on a quarterly basis.
  As a result of our own audit of state agency benefit payment
  control systems and data generated by the Random Audit
  program, we have determined that substantial benefit sav-
  ings can result when those states can match earnings to
  benefits for unemployment    insurance.
  Clearly, very significant additional savings can also be real-
  ized in such areas as food stamps, aid to dependent chil-
  dren and child support enforcement programs. The issue of
  wage reporting and our support of this legislation is more
  fully described in the Employment and Training section of
  this report.


                       ADP Nnitiatives

As part of our efforts to develop    a strong ADP capability, a Di-
vision of Information Resources     was recently established with-
in ORMLA. This coincided with       the Inspector General's com-
mitment to launch an aggressive      and coordinated effort to use


                               .64
computer technology    to improve   the efficiency   and effective-
ness of our work.

In addition to an on-line management information system for
tracking work and accomplishments,     a major emphasis of the
IG has been the integration of current technology with the tra-
ditional OIG disciplines. This has been accomplished, in part,
through the acquisition of 25 portable microcomputers.     The
computers were recommended by the PCIE Computer Audit
Committee for use throughout     the entire IG community. Al-
though training of OIG audit and investigative staff has just
been initiated, this new technology has already played an im-
portant role in some of our work.
For example, the microcomputer     was recently used by two of
our agents during an organized crime and labor racketeering
investigation to compute the interest lost throughan apparent
diversion of union funds. Under a court deadline to provide
evidence of the alleged crime, and with less than two days of
exposure to the computer and its software, the agents were
able to use the equipment      and complete complex analysis
work in a matter of days. The agents estimated that, without
the equipment and its sophisticated software capabilities, the
work would have taken several people up to three months to
complete--an     amount of time that simply was not available.
Additionally,  after the agents were notified that they had re-
ceived some erroneous interest rates, the necessary correc-
tions to all of the computations   were able to be made in a
matter of minutes. The information developed by the agents is
being used by the U.S. Attorney for presentation at the up-
coming trial.
The equipment was also used to support the recently com-
pleted state survey of the Job Training Partnership Act pro-
gram. The JTPA survey, discussed more fully in the Employ-
ment and Training section of this report, was under a tight
deadline to complete an analysis of substantial amounts of
data from each of the 50 states and seven other entities. As
previously indicated, management and control systems were
being devised and instituted by each of the states and entities.
Thus, it was necessary to delay initiation of the audits of JTPA
systems implementation     for as long as possible, so that the


                               65
systems to be examined could be sufficiently developed to
make a review meaningful.   However, for this audit to be of
maximum value to the Secretary, the results and identification
of problems had to be available at the start of the grant peri-
od. This compressed time period necessitated the type of
transmission and analytical capabilities that this new equip-
ment could provide. The result has been a timely and useful
end product, which, given the amount of data involved, was
produced in record time.
We are very excited about this capability and its impact on our
work. As the remaining phases of the OIG automation plan,
including   the installation   of an OIG-wide       network  of
minicomputers,   are implemented, we expect that the number
and complexity of applications will increase substantially.




                              66
Office of Investigations
This     reporting period completes five years of operations for
this   organization. Throughout this time, significant progress
has    been made by the Office of Investigations. The graph be-
low    illustrates our accomplishments  since Fiscal Year 1980.


                             Office of Investigations
                           Indictments& Convictions
        300




                  Indict ments.._             Convictions
        250 -




        200 -




        150 --




        100 -




         5O




          0
                 FY 1980            FY 1981        FY 1982   FY 1983




Our progress in indictments and convictions over this period
has increased by approximately 422 percent for indictments


                                          67
                                     l       I       1       l       l       i
c_l       I          l       1




                                         l       l       I       i       i       l
                         I       l
      1       ,r-"
and 412 percent for convictions. There are several factors that
have contributed to this increase. As the Special Agents have
gained experience     in the intricacies of departmental    pro-
grams, we have developed a well disciplined,       professional
group of investigators. In addition, we have incrementally in-
creased the investigative personnel by approximately 60 per-
cent so that we are presently at our greatest strength. Finally,
we have improved case management, and the U.S. Attorneys
recognize the quality of the evidence that we develop and
have become more familiar with Department of Labor pro-
grams and their impact on the economy.
Other investigative results, such as cost efficiencies, amount
of settlements, and amount of recoveries are not as easily
compared because of various changes in definitions and cir-
cumstances.      However,   progress in these areas has been
equally significant. For instance, during this reporting period,
fines and penalties, settlements and judgments, and restitu-
tion actions totaled $816,521.
Throughout the first five years of this organization, most in-
vestigative efforts have focused on programs administered by
the Employment and Training Administration       (ETA) and the
Employment      Standards Administration  (ESA). Recently, we
have begun to expand the efforts to other Agencies, such as
the Mine Safety and Health Administration,    and we will con-
tinue to increase our attention to other DOL program areas.
During this reporting period, 31 percent of investigative hours
were devoted to ETA cases, including violations of CETA and
the Unemployment     Insurance programs. Thirty-two percent of
the time was spent investigating cases under ESA, including
claimant fraud under FECA and Black Lung. The remainder of
the time, 37 percent, was devoted to other programs and
operations.


     Employment and Training Administration

During this period, we opened 161 ETA cases and secured 124
indictments and 70 convictions. These figures include 68 cases
opened under the Unemployment      Insurance program that re-


                               69
suited in 43 indictments and 15 convictions. We addressed
such problems as participant ineligibility,    embezzlement,   and
forgery. The cases below highlight the types of schemes that
were perpetrated against ETA programs.
e A scheme was uncovered that resulted in an indictment and
   conviction of a Notary Public and two coconspirators for
   mail fraud and conspiracy. They were involved in an at-
   tempt to defraud the Texas Employment Commission of UI
   benefits by providing false employment documentation         to
   requalify potential claimants who were ineligible for the
   benefits. The Notary Public, in return for payments, provid-
   ed letters which falsely stated that individuals had worked
   for various employers, had earned wages, and were subse-
   quently laid off. Twenty-three      claimants provided sworn
   statements that they had paid the Notary Public from $70 to
   $150 for their particular letters and that they had not worked
   or been paid wages by their purported employers.
   The amount of false claims charged to the Texas UI program
   in this scheme is estimated at more than $165,000. The No-
   tary Public was sentenced on August 11, 1983, to serve three
   years in prison. U.S.v. Richmond (S.D. Texas)
o On July 15, 1983, the Executive Director of Midway Health
  Services, a subgrantee of the Illinois Department of Human
  Services, accepted a plea agreement, pied guilty and was
  sentenced to two years' probation. She was also required to
  make $3,300 in restitution payments to the Illinois Danger-
  ous Drug Commission. She had been under indictment on
  State charges of grand theft and had previously entered a
  plea of not guilty. A contract with the Illinois Department of
  Human Services provided that Midway Health Services
  would train eligible CETA participants in the field of coun-
  seling high school dropouts and truants. The Executive Di-
  rector diverted     CETA funds for her personal         use by
  submitting   fraudulent   time and attendance      information
  which caused the improper issuance of payroll checks. She
  also used the same scheme to divert State grant monies
  from the Dangerous Drug Commission for her personal
  use. Cook County v. Barge (Cir. Ct. Illinois)




                                70
• A Job Corps Center financial clerk in Astoria, Oregon, was
  given one year of supervised probation and entered a Pre-
  Trial Diversion Program after she embezzled approximately
  $7,900 of Job Corps funds. She was also ordered to make
  restitution in the amount of $1,157. She carried out her
  scheme by endorsing and cashing paychecks made out to
  corpsmen, failing to deposit cash receipts, and stealing pet-
  ty cash and bus passes. She was able to perpetrate the em-
  bezzlement because no one checked on her performance
  as a financial clerk, and her office was never audited by the
  contractor during the 20 months that she worked there. In
  addition, her supervisor submitted weekly financial reports
  to the contractor without reviewing deposit slips or bank
  statements to verify their accuracy. U.S.v.     Gragg (W.D.
  Washington)
• The former Executive Director of a CETA contractor, the East
  Los Angeles Health Task Force (ELAHTF), and the President
  of the Community Health Foundation (CHF) pied guilty to
  making false statements and embezzlement of CETA funds.
  The former Executive Director allowed a Task Force employ-
  ee to submit biweekly timecards for work not performed,
  which resulted in $4,475 in unauthorized     CETA payments.
  The President of CHF made false statements on a CETA ap-
  plication made to the City of Los Angeles regarding her pre-
  vious employment.        In addition,  she was carried as a
  "ghost" CETA employeeby        ELAHTF on a CETA contract un-
  der her maiden name. On May 9, 1983, the former Executive
  Director of ELAHTF was given a four-year suspended sen-
  tence, placed on five years' probation and ordered to pay
  $5,375 of restitution. The President of CHF was sentenced to
  four years' probation      and ordered to pay restitution   of
  $3,749 to CETA. As part of their sentences, both individuals
  are prohibited from holding a position of trust in any agen-
  cy receiving Federal funds by grant or contract. U.S.v.
  Rodriguez (C.D. California)
• On April 15, 1983, a convicted felon, who had represented
  himself as the owner of a building maintenance company,
  pied guilty to an information charging him with theft of em-
  ployment and training funds. He was sentenced to two
  years in prison. In the same case, a parolee entered a Pre-


                                71
  Trial Diversion Program after he assisted the convicted felon
   in obtaining on-the-job training (OJT) contracts from the
  City of Spokane, the Spokane School District, and the State
  of Idaho. The parolee, who was on a prison work-release
   program, assisted in making false representations which led
  to issuance of the OJT contracts. During the investigation, it
  was learned that the individual, who represented himself as
  the owner of Knickel Investments and Monrovia, Inc., was a
  convicted felon on a work-release program. He had no full-
  time employees and he paid the OJT participants less than
  the required level while falsely billing CETA and receiving
  reimbursements for salaries that had not been paid. U.S.v.
  Koller (E.D. Washington)

• On February 13, 1981, the president of Machine Design and
  Development      Corporation   in Chicago was indicted by a
  Federal grand jury for mail fraud and theft of employment
  and training funds. The investigation disclosed that he de-
  frauded CETA participants in a variety of ways, including: (1)
  failure to provide the training required by the CETA con-
  tract; (2) submitting false vouchers for hours not worked by
  participants;  (3) receiving reimbursement     for wages that
  were never paid to employees; (4) submitting false vouch-
  ers for supportive services that were never provided to par-
  ticipants; and (5) coercing a participant to sign a fraudulent
  time sheet.

  After the indictment, he fled and remained a fugitive until
  May 1983, when he was arrested in Texas after returning
  from Mexico.

  On August 12, 1983, he entered a plea of nolo contendere
  to the theft of employment and training funds. He received
  a 26-month sentence, with all but 60 days suspended. He
  was also placed on two years' probation and ordered to pay
  $9,400 in restitution. U.S.v. Milek (N.D. Illinois)


       Employment Standards Administration

In ESA cases, claimant fraud in the FECA and Black Lung Pro-
grams continues to be a problem. During this six-month peri-


                              72
od, we opened         85 FECA claimant cases and closed 81 cases.
Many of these         cases involve claimants concealing earnings
that, if reported,     would result in a reduction or termination of
benefits. Some       of the more significant ESA cases are summa-
rized below.

• On April 19, 1983, a beneficiary who had been receiving
  temporary total disability payments from OWCP since 1974
  pied guilty to one count of making false statements to ob-
  tain Federal employees' compensation. This joint investiga-
  tion with the Veterans Administration    disclosed that the
  beneficiary had been employed since October 1980, and
  had failed to report her income to OWCP. On May 17, 1983,
  she was ordered to repay $25,737 to the Department of La-
  bor and given five years' probation. She was also removed
  from the FECA periodic rolls. U.S.v. Price (C.D. California)
• A recipient of temporary total disability payments who was
  attending Washington State University under a DOL funded
  vocational rehabilitation plan was indicted for making false
  statements concerning his employment status. The investi-
  gation began after it was alleged that the recipient had
  earned over $50,000 from distribution of a diet drug and op-
  eration of a health food store in 1982. While operating the
  business from his residence, OIG Special Agents purchased
  mechandise from the recipient and determined that he had
  earnings in excess of $117,000 over a two-year period during
  which he was drawing disability compensation. During that
  time, the recipient    made false and misleading statements
  concerning his employment and earnings on official forms
  used to establish the recipient's continued eligibility.   On
  July 22, 1983, he pied guilty and entered into a Pre-Trial Di-
  version Agreement. He has been removed from the rolls
  and OWCP is currently         determining   the amount      of
  overpayments so that restitution can be made. U.S.v. Keith
  (E.D. Washington)
• On September 23, 1983, a U.S. Capitol Police Officer, who
  had sustained a leg injury while directing traffic, was con-
  victed of making false statements and mail fraud. While col-
  lecting FECA benefits in excess of $56,280, he concealed the
  fact that he had earned income from two outside sources.


                                    73
  Although he was supposed to be on total temporary disabil-
  ity, he held jobs as a retail store manager and a real estate
  agent. He is awaiting    sentencing.   U.S.v.  Sowards (D.
  Arizona)

• A joint investigation with the FBI resulted in a guilty plea
  from a supervisor of a roofing company operating out of
  Fort Sill, Oklahoma. He pied guilty to making false state-
  ments and soliciting kickbacks from public works employ-
  ees operating under Government contracts. Although re-
  quired to pay the prevailing wage for work done on the
  Federal project, the supervisor sought kickbacks from his
  employees and falsified reports. He was sentenced to three
  years' supervised probation and ordered to make restitution
  of $3,690 to the injured parties. Under a special condition of
  the sentencing, he was also ordered to serve six months in
  prison beginning on September 15, 1983. U.S.v.            Porter
  (W.D. Washington)
® On March 9, 1983, a Black Lung compensation recipient was
  indicted by a Federal grand jury in Roanoke, Virginia, for
  making false statements, theft of Government funds, and
  mail fraud. He had been receiving Black Lung compensation
  as a result of fabricating    his employment      history and
  submitting fraudulent affidavits attesting to the mining jobs
  that he had held. On September 29, 1983, he pied guilty to
  one count of theft involving more than $32,000 in Govern-
  ment monies. He is scheduled for sentencing on October
  11, 1983, and could receive a fine up to $10,000 and/or five
  years in prison. U.S.v. Sexton (W.D. Virginia)
• Following a three-year investigation, a vice president of a
  national Black Lung association, who was also a well known
  candidate for president of the United Mine Workers of
  America, was indicted on charges of impersonating a Feder-
  al agent and improperly taking fees from Black Lung claim-
  ants during a seven-year period. During the trial, numerous
  miners or their relatives testified that they had paid fees of
  $500 to $3,200 to the individual for representing their Black
  Lung claims. On the opening day of the trial, he was ar-
  rested for carrying a loaded gun into the courtroom and
  was later fined $50 for carrying a firearm on Federal proper-


                              --74--
  ty. On May 28, 1983, he was found guilty of 11 counts of
  Black Lung misrepresentation     and is awaiting sentencing.
   U.S.v. Carter (S.D. West Virginia)
• As a follow-up to an item reported in the last semiannual re-
  port, an attorney pied guilty on May 10, 1983, to collecting
  advance fees for representation     of Black Lung claimants
  from 1978 to 1982. As part of the plea agreement, the attor-
  ney must repay $85,696 to 22 former clients. He was sen-
  tenced on July 11, 1983, to a five-year suspended sentence
  and was placed on five years' probation. Finally, the State
  Bar Association is in the process of suspending his license
  to practice law. U.S.v. Christoffers (S.D. Iowa)


                  Other Program Areas

As mentioned previously, we have also investigated cases in-
volving violations in other program Agencies. In addition to
the Mine Safety and Health Administration,     other Agencies
that received attention during this reporting period include
the Office of the Assistant Secretary for Administration  and
Management (OASAM), the Women's Bureau, and the Office
of the Solicitor. Highlights of cases from these Agencies are
summarized below.

• In late 1982, a former clerk-typist in the Division of Control
  and Liaison, along with a non-Government         employee, de-
  vised and implemented       a scheme to steal and negotiate
  U.S. Treasury checks stolen from the Department's Payment
  Services Division, Office of Accounting.       By stealing the
  checks, forging the signatures, and negotiating the checks
  at various stores and businesses, the subjects were able to
  illegally secure approximately $13,000. Both individuals pied
  guilty to an information   charging embezzlement of public
  funds and were sentenced on May 24, 1983, to two years' in-
  carceration. U.S. v. Williams (D.C.D.C.)

• A Regional Administrator of the Women's Bureau was termi-
  nated in February 1983 for falsifying her time and attend-
  ance records from 1979 to 1982 and misusing her official po-
  sition. The investigation   established that the Regional


                                75
   Administrator was working less than full-time, but directing
   her secretary to submit timecards that reflected a 40-hour
  workweek. She also directed her secretary to "patch" calls
   from the National Office through to her residence in such a
   manner that it appeared that she was actually working in
   her office and conducting official business. In addition, the
.J Regional Administrator    requested that a contract employee
   accompany her on a trip to assist in the conduct of personal
   business in October 1980. The contract employee made the
   trip with the Regional Administrator    and, despite the fact
  that no official business was conducted, the Regional Ad-
   ministrator  authorized   the contract employee to receive
   regular pay for that period.
  The Regional Administrator filed an appeal with the Merit
  Systems Protection Board (MSPB) and, on August 8, 1983,
  the MSPB upheld the Women's Bureau actions to suspend
  and remove the Regional Administrator.
® On May 16, 1983, a clerical employee in the Office of the
  Solicitor was suspended for dishonest behavior. On Octo-
  ber 25, 1982, she submitted a written request for advance
  sick leave under the guise that her doctor was requiring her
  to undergo treatment for emphysema. Further inquiries es-
  tablished that she was not under treatment for emphysema
  but rather that she was scheduled to begin serving a six-
  month prison sentence on October 29, 1982. The prison
  sentence was a result of an earlier conviction for illegally
  cashing another     person's  U.S. Treasury check in the
  amount of $1,376. When the employee's supervisor became
  aware of all of the facts, he disapproved her sick leave re-
  quest, and she was placed on Absence Without Leave status
  while she served her prison sentence. Upon her return, she
  was suspended for 30 days.
• On June 21, 1983, seven miners were killed and three others
  injured in a mine explosion at the Clinchfield Coal Compa-
  ny's McClure No. 1 Mine in Southwest Virginia. After the
  accident, numerous allegations were made indicating that
  Mine Safety and Health Administration      officials had been
  aware of unsafe conditions in the mine prior to the explo-
  sion, but had failed to take appropriate steps to remove the


                               76
  danger. In July 1983, a Task Force consisting of OIG investi-
  gators and auditors was sent to the area to investigate the
  allegations. The investigation is currently active and we an-
  ticipate that the findings will be reported in the next semi-
  annual report.


            Complaint     Handling Activities
The Office of Inspector General serves as the focal point for
receiving reports of alleged fraud, waste, or irregularities in
Department of Labor programs. We currently        receive and
manually track the status and disposition of these complaints
on a nationwide basis. In order to significantly   reduce this
administrative workload, much effort has been devoted to the
development of an automated system capable of providing in-
formation and instant referral of complaints among the Re-
gional Offices of Investigation throughout the country. Com-
plete implementation   of such a system will be accomplished
during the upcoming semiannual reporting period.
During this reporting period, we received 731 reports nation-
wide, from both the general public and departmental employ-
ees. These reports were made directly to the OIG National Of-
fice, the Regional Offices of Investigations or Audit, or the
OIG Hotline component.     Sources of these complaints were
varied. Thirty came from the GAO Fraud Task Force, 38 from
the OIG Hotline, 408 from letters, 192 from DOL Incident Re-
ports, 24 from telephone calls, and 39 from various other
sources.

Of these complaints, 332 were referred for OIG investigations
or audits, 111 were referred to DOL program managers for re-
view or administrative   action, 28 were referred to non-DOL
agencies, and 260 required no further action. Twenty-seven
percent of the complaints were related to the Employment
and Training Administration     and 48 percent to the Employ-
ment Standards Administration.

The OIG Hotline serves as a resource for employees and the
general public to report suspected incidences of fraud, waste,
and abuse in Department of Labor programs. The Inspector
General Act of 1978 provides that employees and others may


                           m77--
                       Office of Inspector General
                      Complaint Handling Activities
       5oo




       400




       300




       200l




       lOO




         o
               GAO      Hotline   Incident   Mail      Others
                                  Reports
                                  Sources




report such incidences   with     an assurance      of confidentiality
and protection from reprisals.

During this reporting   period, the Regional Offices of Investi-
gation opened   12 investigations     as a result of complaints   re-
ferred to them by the OIG Hotline component.            One of these
investigations resulted   in administrative    actions being taken
against three employees     as a result of the followin_case.

• We conducted     an investigation   which disclosed    that three
  employees    of the Mine Safety and Health Administration
  (MSHA)    had taken approximately      30-40 pieces of Govern-
  ment property   including   oak chairs, file cabinets, and desks

                                  78
from the MSHA office in Bellevue, Washington. Based on
the investigation, MSHA demoted the Sub-District Manager
of the Bellevue office to a lower grade and reassigned him
to a District office in Alameda, California. The two other
employees received suspensions of five days and three days
respectively. The employees had removed the furniture for
their own personal use.




                          79
Office of Audit
The Office of Audit administers a comprehensive    audit pro-
gram to independently     assess DOL programs, activities and
functions. This audit effort has three objectives:
• promote economy,       efficiency   and effectiveness   in DOL
  operations;
• avoid large dollar   loss in the administration   of DOL pro-
  grams; and
• prevent and detect fraud     in DOL programs,     and help en-
  sure program integrity.
During this reporting period, we have undertaken a number
of management initiatives to more efficiently and effectively
meet objectives. These are highligthed below.
Increased Program Audit Efforts--Program       audits are an im-
portant part of the DOL audit program, and provide a com-
prehensive review of a single program or a designated part of
a program, function or activity within the Department of La-
bor. They can include a review of financial statements, com-
pliance, economy and efficiency, and program results. Be-
cause of the comprehensive     nature of this type of audit, it is
more likely to identify the basic cause of deficiencies. Con-
tract and grant audits, which are often strictly financial and
compliance audits, disclose a substantial amount of misspent
funds; however, they often fail to identify underlying prob-
lems in program operations or regulations. Implementation
of the grantee procured "single audit" provisions of OMB
Circular A-102, Attachment P, is providing broader audit cov-
erage of DOL grant recipients.
We have also expanded traditional financial and compliance
audit work performed through audit service contracts to in-
clude more economy and efficiency audits. This approach is
being taken in auditing the Job Corps program. As a result,
more OIG staff resources can be devoted to audits of DOL
programs, functions and activities. In Fiscal Year 1983, 65 per-
cent of our resources were used on program audits and

                                81
fraud.prevention  activities, while in Fiscal Year 1982, only 40
percent of our resources were used for these purposes.
Expanded Audit Coverage--Since           its inception in December
1973, the Comprehensive            Employment      and Training   Act
 (CETA) program had been the primary focus of our audit ef-
forts. In Fiscal Year 1982, we began to direct the scope of au-
dit work away from the training programs, devoting a greater
 percentage of resources to non-training         benefit and entitle-
ment programs. A considerable           amount of audit effort has
been devoted to the Unemployment             Insurance program and
the Workers' Compensation          programs. A comprehensive       re-
search effort is underway in the Labor-Management            Services
Administration   to identify issues for detailed audit work. Ad-
ditionally,  substantial   audit resources are being directed
toward identifying weaknesses and deficiencies in the acqui-
sition, management,      utilization   and protection    of ADP re-
sources within the Department of Labor.
Emphasized Prevention--Prevention      is receiving particular
attention in audit programs and in guides used to review de-
partmental programs, activities and functions. In addition,
the Office of Audit, in conjunction with other OIG compo-
nents, reviews regulatory and legislative proposals and un-
dertakes special prevention efforts. For example, we partici-
pated in the effort to develop the Job Training Partnership
Act (JTPA) legislation and regulations to make certain that
many of the problems that beset CETA will not recur in JTPA.
Strengthened Audit Operations--A       number of changes have
been made in internal operations to make our audit program
more efficient and effective. First, the headquarters office
was reorganized to provide indepth understanding of issues
confronting program agencies, more efficient administration
of audit service contracts, and use of state-of-the-art  audit
techniques. Second, field operations were realigned from 11
to 7 offices. The uniform field structure has improved control
and coordination    of audit resources, and has resulted in
more efficient administration of the audit program. Third, all
audit operating policies and procedures have been revised to
provide an organizational framework to enable the Office of
Audit to meet professional audit standards in reviewing de-



                              --82m
partmental programs and carrying out the legislative    require-
ments of the Inspector General Act of 1978.
In addition, a new Assignment Tracking and Reporting Sys-
tem (ATARS) was implemented         within the Office of Audit.
ATARS provides better management information          on the sta-
tus of ongoing work and open audit reports, and meets the
IG's statutory audit follow-up     and reporting   requirements.
Finally, an extensive professional      development    effort has
been undertaken to upgrade and enhance the skills and abil-
ities of the OIG audit staff. In Fiscal Year 1983, we sponsored
courses in basic auditing, expanded scope auditing, ADP au-
diting, audit report writing, DOL program orientation,        and
OIG audit policies and procedures.
Enhanced ADP Capabilities--Our     ADP capabilities are being
improved through training of OIG staff, procurement of ad-
ditional ADP equipment for OIG internal use, and applica-
tion of ADP audit techniques. We are placing increased
emphasis on the use of state-of-the-art equipment and tech-
nology in audit applications.
Auditors have access to microcomputers to aid them in con-
ducting audits 'and in manipulating large amounts of data in a
more effective way. In addition, a Division of Advanced Au-
dit Techniques has been established. Relying heavily on ADP
technology will help the Division ensure that audit work is
performed using the latest audit techniques.


                       Audit Activity
During this reporting period, 342 audits of program activities,
grants, and contracts were issued. Of these, 76 were per-
formed by OIG auditors;       114 by contract auditors under
OIG's direct supervision;   98 by state and local government
auditors; 29 under OMB Circular A-102, Attachment P, provi-
sions, where DOL is the cognizant agency; and 25 by other
Federal audit agencies, of which 15 were Attachment       P au-
dits. Of the 342, 259 were financial and compliance audits, 68
were economy and efficiency audits, 6 were preaward sur-
veys, and 9 were special purpose reviews.


                               83
The following     table summarizes activities by program and
identifies  the amount of questioned        costs, costs recom-
mended for disallowance, and grant or contract amount au-
dited, where applicable.*   It is followed by a discussion of fi-
nancial and compliance       audit activities.    Program audit
activities are included in Part I of this report.

      Summary of Audit Activity of DOL Programs
                                April 1 to September 30, 1983

                                                          Amount Rec-
                                                           ommended       Grant/
                                               Amount of     for Dis-    Contract
                                     Reports     Ques-      allowance    Amount
Agency                                Issued tioned Costs      (000)     Audited
                                                (0_)                      (000)

Employment and
 Training
 Administration .......                 280         $64,831    $27,758    $4,974,705
Employment
  Standards
 Administration .......                   3               -          -              -
Mine Safety
  and Health
  Administration           .......       10             716          4        12,754
Occupational
  Safety and
   Health
  Administration .......                 30             815        254        24,255
Office of the
  Assistant
  Secretary for
  Administration
  and Management       ....              19             511        319        18,799

Totals .................                342         $66,873    $28,335    $5,030,513




* Questioned    costs are expenditures     without sufficient documentary   ev-
  idence to make a conclusion       on allowability.  Costs recommended     for
  disallowance   are expenditures   that the auditor judges, based on avail-
  able evidence, to be unauthorized      under the terms of the grant or con-
  tract. The term     "audit   exceptions"     encompasses    both questioned
  costs and costs recommended      for disallowance.



                                              -84
Employment                         and Training Administration
The Employment and Training Administration         (ETA) adminis-
ters $7.2 billion in grants and contracts to state and local gov-
ernments, as well as private non-profit and for-profit entities.
Over 93 percent of the Department's net budget authority is
committed to the administration of ETA programs. A substan-
tial portion of our contract audit plan is directed towards au-
diting these funds and identifying major problems. The fol-
lowing chart provides a breakout of ETA programs, dollars
audited and the amount of questioned costs or costs recom-
mended for disalllowance.


      Summary of Audit Activity of ETA Programs
                                     April 1-September                   30, 1983

                                                                    Number       of   Amount        Amount of
Program                                                              Reports          Audited       Exceptions
                                                                                        (ooo)          (ooo)

JTPA ................................                                    58                     -                -
CETA Prime Sponsors ................                                    166           $2,728,355        $61,733
Migrants       ............................                                  4            41,977               932
Job Corps          ..........................                                4            18,681          1,746
Native Americans               ....................                      14               12,594          1,821
Other National             Programs             ............             20              66,892           3,297
State Employment                 Security Agencies             ..        14            2,106,206         23,060

Totals     ..............................                               280           $4,974,705        $92,589



JTPA Administering Entities

We issued 58 audit reports performed by OIG staff on the Job
Training Partnership Act program. A separate audit report on
systems development was issued for each of the 57 states and
entities administering JTPA funds, and a summary report was
prepared for program management. The results of these au-
dits are described in Part I of this report.



                                                               85
CETA Prime Sponsors

We issued 166 audit reports on CETA prime sponsors.         Of the
$2.7 billion audited, $61.7 million    in grant funds was ques-
tioned or recommended     for disallowance    due to lack of docu-
mentation   for expenditures  or non-compliance      with CETA re-
quirements.    Of the 166 reports   issued, 19 reports accounted
for 63 percent of all audit exceptions.
Most of the audit exceptions      are in the areas of unresolved
(including  improperly  resolved)    subrecipient   audits, indirect
costs charged without  application    of an approved     indirect cost
rate, and accounting     and time reporting       deficiencies,     as
follows:


                                                                     Dollar
                                                                    Value of
    Audit       Exceptions                                         Exceptions
                                                                      (ooo)
    Unresolved Subrecipient Audits .......................             $30,450
    Indirect Cost Problem .................................             10,330
    Costs Exceeded Budget ...............................                7,162
    Accounting/Reporting Systems Deficiencies .............              6,594
    Other ................................................               7,197

    Total .................................................           $61,733


It should be noted that these exceptions      do not always result
in firm debts owed to the Department.        Often, during the au-
dit resolution or administrative   appeal process, the grantee is
able to provide additional    documentation,    develop an accept-
able indirect cost rate plan, or resolve subrecipient     audits.

The following    examples illustrate the types of audit exceptions
identified  during the period,     particularly the four major types
noted above:

•   City of Los Angeles,   Community Development   Department,
    Los Angeles,    California--The   audit  of $191.6 million
    awarded to the City of Los Angeles for the period October



                                                              86
  1, 1978, through September 30, 1981, resulted in audit ex-
  ceptions of $8,178,237. Three of the major types of excep-
  tions noted earlier accounted for about 96 percent of this
  amount. Specifically, $3,621,630 was recommended for dis-
  allowance because the grantee did not resolve subrecipient
  costs questioned on prior audit reports. Another $2,080,914
  was recommended       for disallowance because the grantee
  charged indirect costs using unapproved indirect cost rates.
  Subrecipient costs of $1,146,572 were questioned because
  the subrecipients did not maintain accounting records local-
  ly or were unable to locate some or all of their accounting
  records. Another $1,078,961 in subrecipient costs was ques-
  tioned because documentation        supporting claimed costs
  was missing or inadequate.
• County of Santa Clara, CETA Administration,           San Jose,
  California--The   audit of $23.4 million awarded to the Coun-
  ty of Santa Clara, CETA Administration,   for the period Octo-
  ber 1, 1979, through September 30, 1981, resulted in audit
  exceptions of $6,346,743. Almost 60 percent of these excep-
  tions were related to inadequate documentation       or indirect
  cost problems. The reasonableness of $1,990,101 in charges
  under fixed unit price subcontracts could not be deter-
  mined because supporting documentation          was missing or
  inadequate, and $779,174 in indirect costs was allocated to
  the CETA program without adequate support: Subgrantee
  costs of $734,753 violated various subgrant terms and condi-
  tions (e.g., subgrant budget limitations).      Grant costs of
  $539,165 were not supported by adequate documentation,
  and $440,674 in subrecipient      costs were unauditable be-
  cause records were missing, not available for audit, or re-
  tained by the FBI for investigation. Advances of $405,637 to
  subrecipients from years prior to the period audited were
  never refunded to DOL.

• Ocean County Employment       and Training Administration,
  Toms River, New Jersey--The audit of $55.5 million awarded
  to the Ocean County CETA program for the period October
  1, 1976, to September 30, 1981, resulted in audit exceptions
  of $3,520,534. As in the preceding example, these excep-
  tions were primarily costs questioned because of problems
  regarding either inadequate documentation     or use of im-


                              --87m
  proper indirect cost rates. Of these questioned            costs,
  $1,849,637 related to indirect costs which were not support-
  ed through application of an approved indirect cost rate.
  Another $174,935 resulted from unsupported accruals. Also,
  wages of $201,158 were paid without documentation            sup-
  porting the rates of pay. Finally, $95,294 in participant wages
  was questioned      because participant applications     did not
  contain information adequate to determine eligibility. Costs
  recommended       for disallowance included $853,651 in costs
  which were not traceable from cost report worksheets to
  accounting records, and $108,080 in wages and allowances
  paid to ineligible participants.
Migrant and Seasonal Farmworkers Grantees
During this reporting period, four financial and compliance
audit reports were issued on migrant and seasonal farm-
worker grantees. Certified Public Accounting (CPA) firms per-
formed the audits. Three of the reports were by CPA firms un-
der contract with the Department       of Labor. Of the $41.9
million in audited costs, $932,377 was questioned or recom-
mended for disallowance as follows:


                                                           Amount of
  Audit Exceptions                                         Exceptions
                                                             (ooo)

  Accounting/ReportingSystemDeficiencies..............          $357
  Costs ExceededGrant Budget .........................           242
  Cost Allocation SystemDeficiencies....................         213
  UnresolvedAudit Exceptions..........................            38
  Other ................................................          82

  Total.................................................        $932


The following illustrates the results of a migrant and seasonal
farmworker audit:

• Indiana Office of Occupational Development--An     audit of
  $1.9 million awarded to the Indiana Office of Occupational
  Development    for February 1, 1980, through September 30,


                                                   88
  1981, resulted in $251,077 in questioned costs. The ques-
  tioned costs consisted of costs in excess of the budget
  ($112,577) and costs questioned at the subrecipient  level
  ($138,500).


Job Corps Audits

An extensive series of audits of the Job Corps program is near-
ly completed. These audits cover the three major components
of the program: Job Corps residential centers; outreach,
placement and training activities; and architectural and engi-
neering construction and rehabilitation   projects.
Specific audit work is described    below:
• The field work for 77 financial and compliance audits, cov-
  ering 73 Job Corps Centers, is complete. Thirty draft audit
  reports have been issued to ETA and the contractors for
  comment, with the remaining reports to be issued in the
  next 30 days.

• Field work for economy and efficiency audits of the man-
  agement of the Job Corps Centers and outreach, placement
  and training activities is complete, and draft audit reports
  are being written.

• Finally, field work on 15 economy and efficiency audits of
  Job Corps contracts awarded to architectural and engineer-
  ing firms is complete, and a draft report is being written.
After a sufficient number of comments to this series of audits
are received from ETA and Job Corps contractors, we will
summarize the audit findings and include a discussion of
these findings in the next semiannual report.

Indian and Native American Grantees

During this reporting period, 14 audit reports covering Indian
and Native American programs were issued. Of the $12.6 mil-
lion in audited costs, $1,821,000 was questioned or recom-
mended for disallowance as follows:



                               89
                                                                                 Amount of
  Audii Excepiions                                                               Exceptions
                                                                                   (000)

  Accounting/Financial              Reporting Systems Deficiencies        ....       $1,351
  Payroll/Fringe Benefit Overpayments ...................                               383
  Other ................................................                                 87

  Total .................................................                            $1,821


The following  illustrates                            an audit   of an Indian    and Native
American grantee:
o Lummi Indian Business Council--An      audit of $1.3 million
  awarded to the Lummi Indian Business Council for the peri-
  od October 1, 1979, through September 30, 1981, resulted
  in questioned costs of $258,671. Of the total exceptions au-
  dited, $198,658 was questioned,   and $60,013 was recom-
  mended for disallowance. The questioned costs were a re-
  sult of inadequate documentation    and claimed costs that
  did not agree with the grantee's books. The costs recom-
  mended for disallowance consisted of costs exceeding the
  budget, expenditures not approved by DOL, ineligible par-
  ticipants,  and costs exceeding   the administrative    cost
  limitation.

O_her National Programs
During this period, 20 audit reports were issued on grants and
contracts awarded to public and private agencies for a variety
of special programs for youth, older workers, research and
demonstration    projects, and other special activities. All of
these audits were performed      by CPA firms under contract
with DOL. Of the $66.9 million in audited costs, $3.3 million
was questioned or recommended for disallowance as follows:




                                                            90
                                                                          Amount of
  Audit Exceptions                                                        Exceptions
                                                                             (000)

  Costs Exceeded Grant Budget .........................                        $ 624
  Payroll/Fringe Benefit Overpayments ...................                        607
  AccountingFinancial               Reporting System Deficiencies .....          413
  Unresolved Audit Exceptions ..........................                         284
  Cost Allocation Deficiencies ...........................                        13
  Other ................................................                       1,356

  Total .................................................                     $3,297


The following               four reports illustrate the audits conducted:
• National Joint Painting, Decorating, Drywall Apprenticeship.
  and Training Committee, Washington, D.C.--An        audit of
  $1.7 million awarded to the National Joint Painting, Dec-
  orating, Drywall Apprenticeship and Training Committee for
  May 1, 1979, through March 31, 1982, resulted in audit ex-
  ceptions    of $829,723. Of the total exceptions   audit/_d,
  $829,067 was questioned and $656 was recommended            for
  disallowance. The questioned costs were the result of insuf-
  ficient documentation.    The costs recommended    for disal-
  lowance consisted of fringe benefits in excess of budget. In
  addition, the audit report had one administrative     finding
  pertaining to staff personnel files.
• The Institute for Humanist Studies, East Orange, New Jer-
  sey-An    audit of $1.6 million awarded to the Institute for
  Humanist Studies for November 1, 1979, through February
  28, 1982, resulted in audit exceptions totaling $710,840. Of
  the exceptions    audited,    $257,553 was questioned      and
  $453,287 was recommended         for disallowance.  The audit
  questioned $50,000 for defective pricing data. The costs rec-
  ommended for disallowance and the remainder of ques-
  tioned costs resulted from overcharged salaries, noncon-
  formance     with   contract     provisions,    unauthorized
  purchases, unallowable costs and improperly applied provi-
  sional overhead rates.




                                                            --91 --
® Pacific Economic Resources League, Oakland,             Califor-
  nia-An    audit of $1.7 million awarded to the Pacific Eco-
  nomic Resources League for August 1, 1978, through Sep-
  tember 30, 1981, resulted      in audit exceptions     totaling
  $642,713. Of the exceptions audited, $401,936 was ques-
  tioned and $240,777 was recommended         for disallowance.
  The audit exceptions were for lack of or duplicate time-
  sheets, unsupported adjustments, indirect costs charged as
  direct, lack of prior approval for certain purchases, inade-
  quate documentation,    no allocation plan, and indirect costs
  questioned based on direct costs questioned.

• Opportunities    Industrialization    Centers of America, Inc.,
  Philadelphia,     Pennsylvania--An        audit of $22,394,673
  awarded to the Opportunities         Industrialization    Centers of
  America, Inc., for December 1, 1978, through June 30, 1982,
  resulted in audit exceptions of $832,461. Of the total excep-
  tions audited, $785,413 was questioned and $47,048 was rec-
  ommended      for disallowance. The audit exceptions con-
  sisted of $410,827 in questioned costs for exceeding the
  budget. Questioned       costs of $372,827 and costs recom-
  mended for disallowance of $37,410 arose at the subre-
  cipient level. The remaining questioned costs of $1,759 re-
  sulted from insufficient         documentation,        refunds   not
  credited, and excessive costs. The balance of $9,638 in costs
  recommended      for disallowance was for an incorrectly pre-
  pared invoice.


State Employment Security Agencies

Fourteen audit reports were issued on State Employment Se-
curity Agencies during this reporting period. Of the $2.1 bil-
lion audited, $23 million in exceptions were noted as follows:




                                 92
                                                                             Amount     of
   Audit Exceptions                                                          Exceptions
                                                                                (00o)

   Incomplete Benefit Payment Controls .................                        $14,862
   Costs Exceeded Grant Budget ........................                           3,675
   Cost Management Deficiencies .......................                           2,695
   Prope rty/Eq u ipment Purchase/Accou ntability
     Problems ..........................................                              550
   Cost Allocation System Deficiencies ..................                             362
   Claimant Eligibility ...................................                           233
   Other ...............................................                              683

   Total ................................................                       $23,060


Occupational                    Safety and Health                    Administration
The audit universe of OSHA grantees falls into two broad cat-
egories,   states and non-profit  institutions (such as universi-
ties, trade associations  and local unions).

State Grants and Cooperative                            Agreements
  OSHA has 54 jurisdictions     for state grants, including the 50
  States, Guam, Puerto Rico, the Virgin Islands and the District
  of Columbia.    These jurisdictions    receive OSHA funds for
  three purposes:
• Twenty-four     states received   50 percent  matching   grants to-
  taling $47.6 million    in Fiscal Year 1983 to assist states in de-
  veloping   their own safety programs.
• Forty-six   states (primarily   state departments      of labor) re-
  ceived    cooperative    agreements      for onsite    consultation,
  which are 90 percent      funded,    for a total of $27.7 million    in
  Fiscal Year 1983. These grants are to provide consultation           to
  small employers     on how to improve compliance         with OSHA
  regulations    and standards.
• Forty-eight   states received fully-funded     statistical assistance
  grants totaling    $3.8 million   in Fiscal Year 1983 for the pur-
  pose of collecting     lost workday data for the Bureau of Labor
  Statistics.




                                                        93
OMB Circular        A-102, Attachment       P, requires  state and local
governments       to procure    audits of Federal grants with funds
contained     in the grant. Since 1979, OSHA state grantees have
gradually    moved to comply with the provisions            of A-102, At-
tachment     P. Thus, all OSHA grants to states are audited at the
same time if a state has more than one type of OSHA grant.
During    this reporting     period,    OIG issued 11 financial      and
compliance      audit reports on OSHA state grants. Total funds
audited were $16.8 million,         resulting   in $142,027 in audit ex-
ceptions as follows:

                                                Number     of
                                                Reports with    Amount of
  Audit      Exceptions                          [Exceptions    [Exceptions
                                                                   (ooo)
  Inadequate Documentation for
    Federal Share .....................                     1           $43
  Purchase of Equipment Without
    Grant Officer Approval ............                     2              27
  Improper Transfer of Funds ..........                     1              27
  Excess Expenditures .................                     2              18
  Unreported Program Income .........                       1              13
  Indirect Cost Problem ...............                     3               7
  Improper Expenditures ..............            _         1              4
  Other ..............................                      -              3

  Total ...............................                                $142



® Oklahoma      Department     of Labor--The     audit covered the          ad-
  ministration    of a consultation    agreement    for the period         Oc-
  tober    1, 1979, through       September      30, 1981. A total           of
  $654,477 of Federal funds was audited, of which $50,446                  was
  questioned     for failure    to obtain   prior approval    from         the
  U.S. Department      of Labor for equipment       purchases and          im-
  proper transfers among budget categories.

New Direction            Grants to Non-Profit    Institutions
Since Fiscal Year 1979, OSHA has awarded                 New Direction
Grants under Section 21(c) of the Act to trade unions, trade
associations,    colleges     and universities,   and other non-profit
organizations.    The grants are intended       to assist these groups
in building    an institutional   competence     that provides occupa-

                                          94
tional safety and health related services among workers                      and
employees.
New Direction Grants received $6.8 million in funding during
Fiscal Year 1983. No specified level of matching is required
for Section 21(c) grants. While the grantee is currently re-
quired to become self-sufficient     after not more than five
years of Federal funding, certain Section 21(c) grants are be-
ing allowed to continue for a sixth year in Fiscal Year 1984.
A total of 165 New Direction Grants have been funded since
the inception of the program in Fiscal Year 1979. Of these, 59
grantees were no longer funded as of Fiscal Year 1983. New
Direction grantees are not presently under a requirement to
procure audits, since OMB Circular A-102, Attachment          P,
does not extend to non-profit    institutions. However, OMB
Circular A-110, which covers non-profit institutions,  is being
revised to require non-profit institutions to procure organi-
zation-wide audits of their Federal grants.
During Fiscal Year 1982, OIG issued audit reports on nine
New Direction grantees. During Fiscal Year 1983, OIG per-
formed financial and compliance audits of 38 additional New
Direction grantees, 19 of which were issued during this re-
porting period. A total of $7.4 million was audited, resulting
in $927,318 in audit exceptions as follows:

                                                       Number of
                                                      Reports with   Amount of
  Audit Exceptions                                     Exceptions    Exceptions
                                                                        (000)

  Inadequate Documentation                  of
     Matching Share ...................                         6          $549
  Unauditable       Records ...............                     1           229
  Lack of Documentation                 for Federal
     Share ............................                         6            44
  Costs Incurred After End of Grant
     Period ...........................                         1            29
  Expenditures       Claimed in Excess of
     Grant Amount ....................                          2            25
  Expenditures       Claimed in Excess of
     Line Items ........................                         2           17
  Other ..............................                         --            24

  Total   ...............................                                  $927




                                                95
 Following is a discussion of three reports illustrating the
types of audits conducted    and the types of findings iden-
tified during the reporting period:

• Brown Lung Association, Bath, South Carolina--The        audit
  covered the administration    of OSHA New Direction Grants
  for the period October 23, 1978, through December 31,
  1981. A total of $228,783 of Federal funds was audited. The
  entire amount was questioned because many of the gran-
  tee's source documents were missing or inadequate to de-
  termine if expenditures were made in accordance with the
  terms of the grant agreement. In addition, the grantee en-
  gaged in political activities during the grant period, and
  such activities may be in violation of the contract terms,
  regulations or specific terms of the grant. Specifically, the
  grantee organized a number of activities in support of the
  Cotton Dust Standard, which was being re-evaluated at the
  time by the Federal Government.

    The audit also determined that the grantee retroactively in-
    creased salary levels for several individuals, and charged the
    increases to the grant. The amount of such increases was
    contributed  back to the Brown Lung Association by these
    individuals.

•   International    Brotherhood     of Painters,   Washington,
    D.C.--A total of $1,044,651 of Federal funds was audited, of
    which $47,483 was questioned       because the books of ac-
    count did not support costs claimed on the financial reports
    ($40,063), and because the grantee transferred funds among
    cost categories in excess of allowable amounts ($7,420). The
    most serious finding, however, and one that is recurring in
    audits of New Direction Grants, was questioned costs of
    $185,913 due to inadequate documentation      of non-Federal
    matching costs.
• Graphic Arts International Union, Washington, D.C.--A to-
  tal of $1,229,803 of Federal funds was audited, of which
  $307,507 was questioned due to inadequate documentation
  of non-Federal matching costs and $2,630 for other reasons.




                                96
Mine Safety and Health Administration
The audits          of MSHA            funds   include   both   grants   to states    and
contracts.

State Grants
The Mine Safety and Health Administration             (MSHA) adminis-
ters certain provisions     of the Federal Mine Safety and Health
Act of 1977, which provides        for a safe and healthful     environ-
ment in the nation's coal, metal and non-metal           mines. Section
503 of the Act provides        for 80 percent       matching   grants to
those states in which       mining takes place in order to assist
them in developing        and enforcing     effective   coal and other
mine health and safety laws, as well as to promote               Federal/
state cooperation     in improving     mine health and safety condi-
tions. During Fiscal Year 1983, MSHA administered             42 grants,
totaling $5.2 million    under Section 503.
OMB Circular      A-102, Attachment    P, requires state and local
governments     to procure    audits of Federal grants with funds
contained   in the grant. Since 1979, MSHA state grantees have
moved gradually to comply With A-102, Attachment         P. This in-
creased state activity accounts for the reduced level of direct
OIG audit effort for these grants.
During this reporting     period, six financial  and compliance    au-
dit reports were issued on MSHA grants to states. A total of
$10,452,088 in grant costs was audited,       resulting in $703,636 in
audit exceptions   as follows:

                                                          Number of
                                                         Reports with     Amount of
 Audit      Exceptions                                    Exceptions      Exceptions
                                                                              (000)
 Lack of Documentation for Federal
   Share ...............................                             1               $359
 Lack of Documentation for Subgrantee
   Records .............................                             1               307
 Improper Transfer of Funds Between
   Categories ...........................                            1                12
 Lack of Cost Allocation Plan ............                           1                 9
 Unapproved Purchase of Equipment .....                              1                 9
 Other .................................                             1                 8

 Total ..................................                                            $704




                                               197m
The following report illustrates the type of audits conducted
and the types of findings identified     during the reporting
period.
• State of Kentucky Department of Mines and Minerals--An
  audit of $4.5 million administered by the State of Kentucky
  Department of Mines and Minerals resulted in audit excep-
  tions amounting to $931,007. This audit covered Federal
  funds ($3.5 million) and non-Federal funds ($1 million). A
  total of $669,722 in Federal funds was questioned,        and
  $3,984 was recommended for disallowance. The questioned
  costs consisted primarily of unsupported grantee salary and
  fringe benefit costs ($359,013); unsupported   costs for sub-
  grantees, including unsupported    indirect costs ($133,906);
  undocumented      student costs ($92,530); and unsupported
  salary and fringe benefit costs ($80,664). Federal costs rec-
  ommended for disallowance consisted of improper car rent-
  als ($2,712) and the erroneous charging of State employees'
  per diem and salaries against Federal grant costs. Non-
  Federal funds totaling $257,301 were either questioned or
  d isal lowed.

Contracts

During Fiscal Year 1983, MSHA obligated approximately           $6
million for prime contracts over $10,000. During the period
from April through September 1983, we issued four audit re-
ports on MSHA contracts. A total of $2,301,866 was audited by
the Defense Contract      Audit Agency (DCAA) as follows:
$1,312,466 in cost-plus contracts; $127,009 in fixed fees for two
cost-plus fixed-fee contracts; $753,167 for evaluation of a bid
proposal; and $109,244 to determine costs incurred under an
MSHA contract. A total of $16,842 was questioned.


Departmental       Management

During this reporting period, five audit reports, summarized
in Part I of this report, were issued on reviews of management
activities, and 14 reports were issued on contracts awarded by
the Office of the Assistant Secretary for Administration   and



                             --98--
Management (OASAM). The financial and compliance audits
of the 14 contracts covered $18.8 million in Department of La-
bor funds, and contained audit exceptions totaling $829,948.
Summarized below is an example of the findings noted in the
audit of OASAM's contracts.

• ACE Federal Reporters, Inc., Washington, D. C.--An audit
  of ACE Federal Reporters, Inc., for the period April 1980
  through August 1981, resulted in audit exceptions totaling
  $554,908. A total of $293,556 was recommended for disallow-
  ance and $261,352 was questioned. The primary reason for
  the recommended disallowance was that costs incurred ex-
  ceeded amounts budgeted. Costs questioned resulted pri-
  marily from insufficient support for payments ($250,386).

                     Audit Resolution
During this reporting    period, significant accomplishments
were made in implementing OMB Circular A-50, Audit Follow-
up, within the Department of Labor. By the end of the report-
ing period, the draft departmental directive on audit resolu-
tion and follow-up had been cleared throughout    the Depart-
ment, with only final signature by the Assistant Secretary for
Administration  and Management remaining. The directive will
be published shortly.
During this reporting period, 387 audit reports were resolved
by the appropriate program Agency, and agreed upon by the
OIG. Of approximately     $91 million in questioned    costs or
costs recommended     for disallowance, $24 million was sup-
ported bythe program Agency and disallowed, while $67 mil-
lion was determined to be allowable. In most cases, the costs
were allowed as a result of additional supporting documenta-
tion submitted by the grantee or contractor, or as a result of
reevaluation of regulatory or contractual requirements      that
were in variance with those identified by the auditors. The is-
suance of a final response does not preclude the grantee or
contractor from subsequent appeal or revisions to the disal-
lowed costs.

Of the 175 unresolved audit reports, totaling $70.2 million, 25
were reports which have been unresolved for more than six


                            m99m
months. The total cost exceptions associated with these re-
ports were $7.1 million. Of the unresolved audit reports over
six months old, 24 were on administrative hold pending con-
clusions of ongoing investigations;    they accounted for $2.2
million of the cost exceptions. Resolution of one audit report,
involving $4.9 million in audit exceptions, was delayed while
the auditors were engaged to review additional supporting
documentation    supplied by the auditee during the informal
resolution process. The grant officer's determination   will in-
corporate the results of this review.
We are working closely with the Employment and Training Ad-
ministration to ensure that these unresolved audit reports are
resolved at the earliest possible time.
The following    reports illustrate significant resolutions   which
have occurred    during the reporting period:
o Southeastern Tidewater Area Manpower Authority,         Chesa-
  peake, Virginia--The    Employment and Training Adminis-
  tration resolved Audit Report No. 03-2-374-C-109-040, cover-
  ing the CETA prime sponsor and 30 subgrantees. Total costs
  disallowed were $1,121,196. Of the 30 subgrantees, the au-
  ditors found seven subgrantees who could not be audited
  due to the inability of the auditors to locate necessary rec-
  ords. This situation resulted in $865,943 in disallowed costs.
  The remaining disallowed costs for the prime sponsor and
  auditable subgrantees resulted primarily from improper fi-
  nancial management systems, inadequate internal and ac-
  counting controls, lack of approved indirect cost rates and
  cost allocation plans, and lack of time and attendance rec-
  ords to support payroll charges.
•   Downriver     Community    Conference,   Southgate,   Michi-
    gan-Audit     Report No. 11-2-265-C was resolved by the Em-
    ployment and Training Administration    for the grant period
    from September 1980 through April 1982. Of $623,744 in au-
    dit exceptions, the grant officer allowed $8,915 and disal-
    lowed $614,829. Allowed costs were a result of documenta-
    tion submitted by the grantee to support cash withdrawals.
    However,     documentation     was inadequate    to support
    $72,846 in cash withdrawals, which were disallowed. Costs
    of $541,911 were disallowed because the auditors found that


                               --100--
  wages and fringe benefits were not supported by cost allo-
  cation plans or time and attendance records. The grantee
  submitted documentation   in suppprt of the $541,911 disal-
  lowance but the documentation    was found inadequate to
  support the questioned costs.
• Greater Nashville Community      College, Nashville, Tennes-
  see-The    Employment and Training Administration    resolved
  Audit No. 11-2-191-C for two contracts for the period Sep-
  tember 1977 through September 1981. The contracts were
  funded by CETA Titles I and IV. The entire amount of audit
  exceptions, totaling $581,349, was sustained and disallowed
  by the contracting officer. Of the costs disallowed, $575,468
  resulted from the auditors' questioning all staff salary pay-
  ments made, because no formal time and attendance rec-
  ords existed, leave records were not cumulative, and the
  contractor had no personnel files for its employees.
• Michiana Area CETA Consortium,        South Bend, Indiana--
  The Employment and Training Administration       resolved Au-
  dit Report No. 05-01-042, covering eight grants. The audit
  exceptions totaled $433,146, of which the grant officer al-
  lowed $4,747 and disallowed $428,399. The allowed costs
  were based on documentation       presented by the grantee.
  Costs of $152,145 were disallowed       because the auditors
  found that costs charged by the grantee on the financial
  status reports did not agree with related cost items re-
  corded in the grantee's financial accounting records. Costs
  of $275,247 were disallowed because the grantee had co-
  mingled grant funds which could not be segregated for
  purposes of comparison with related costs in the separate
  financial status reports submitted     for each grant. Non-
  monetary recommendations       required corrective action to
  be taken on reconstructing   the general ledger, tracking ac-
  counts payable for Federal grants, assuring that financial
  status reports are in agreement with accounting records,
  maintaining separate ledgers for different funding sources
  and revising financial status reports as necessary.
There were other significant audit reports resolved,   resulting
in over $1 million of disallowed costs, as follows:




                           --101 --
                                                     Audit        Amount

Grant/Contract                                    Exceptions     Disallowed


 Farmworker's Corp. of New Jersey ..........         $417,966      $417,966
 National Association of the Southern Poor ...        301,604      301,604
 Colorado Migrant Council ..................          170,646       170,646
 Commonwealth     of Puerto Rico ..............       154,830      142,616
 Allegheny County ..........................          137,064       105,360
 City of Dayton .............................         116,356       116,356
 The Alaska Native Foundation, Inc ...........         94,067       94,067
 Idaho Migrant Council, Inc .................          68,236       68,211

 Totals                                             $1,460,769    $1,416,826




                                    --1 02--
Office of Organized Crime and
Racketeering
The OIG's Office of Organized          Crime and Racketeering
(OOCR) has one of the most difficult and challenging mis-
sions in law enforcement--to        eliminate organized   crime
from the labor-management      field. Working in conjunction
with the U.S. Department of Justice Strike Forces, U.S. Attor-
neys, and other Federal agencies, the OOCR identifies tar-
gets and sets priorities aimed at disrupting and reducing the
incursion of organized crime in labor union activities, includ-
ing crimes in the areas of pension, welfare, and benefit
plans.
While we have made progress over the past four years and
have achieved numerous, significant indictments and convic-
tions, the insidious nature of organized crime makes ulti-
mate control of this problem extremely difficult. Eliciting co-
operation     is a great challenge    since many   victims    or
witnesses are unwilling to report criminal activities perpe-
trated by organized crime. Crime syndicates couple tradi-
tional tactics of violence and intimidation with sophisticated
financial schemes to establish and maintain their control and
influence over billions of dollars in union funds, pension
funds, and health and welfare funds. Corrupt practices by
dishonest union and management officials rob union mem-
bers of their rights and benefits and result in both consum-
ers and workers subsidizing organized crime.
Because of the tenaciousness of organized crime, mere pros-
ecution and conviction of a single organized crime individual
is not sufficient to rid a union of its criminal element. In any
organization--and    crime families are no exception--an     offi-
cial who is removed is merely replaced by another. Thus, to
effectively control the penetration     of unions by organized
crime, lengthy and complex investigations,       some lasting for
two or more years, are conducted.         Often these investiga-
tions must result in multiple convictions in order to effective-


                            --103--
ly eliminate   the hold of organized   crime on local or national
unions.

During this reporting period, the Office of Organized Crime
and Racketeering opened 28 cases. There were 21 cases re-
ferred for prosecution to the Department of Justice or other
authorities. In addition, there were 15 indictments which in-
volved 46 individuals. Finally, there were 19 individuals who
were convicted of various crimes as a result of trials or pleas.
Many     of the investigations conducted during this period con-
tinue    to establish violations involving the areas of embezzle-
ment,      illegal payments, and complex schemes designed to
pilfer    significant   amounts of money from union benefit
funds.


                   Benefit Plan VioDations

Union benefit plans, established and maintained by employ-
ers and/or employee organizations,   provide union members
and their beneficiaries with various forms of health and life
insurance as well as retirement income.

Organized crime figures are increasingly tempted to infiltrate
the unions' prepaid, jointly administered health and welfare
plan industry. Because of the billions of dollars that flow into
these funds each year, control of a labor organization and its
affiliated employee benefit plans offers ample opportunity
for embezzlement     and kickbacks. The methods for such ille-
gal activities are as diverse as the imagination permits.
Corruption     of these programs, particularly dental plans, has
been the focus of a series of hearings held by the Senate Per-
manent Subcommittee        on Investigations over the past year.
The Subcommittee       has been involved in a long-term investi-
gation of the Hotel and Restaurant Employees and Bartenders
International    Union in Las Vegas and Atlantic City. However,
OOCR agents, law enforcement         officials, and subcommittee
investigators testified, during those hearings, that the prob-
lem extends to other unions and that it involves medical,
dental,    legal, and other prepaid        benefit plans as well.
Schemes to defraud these plans range from kickbacks and


                             --104--
false contracts to exhorbitant administrative     charges or fees
for services, which are often of marginal value, rendered by
administrators,    consultants, accountants, attorneys, comput-
er companies and other similar supportive operations. In ad-
dition, the Subcommittee       members learned that corrupt un-
ion officials often keep their members unaware of changing
or increased benefits so that the members do not take advan-
tage of their benefits. As a result of these hearings, the Sub-
committee      will be considering    legislation   to curb such
abuses.

Violations in the benefit plan area have also received increas-
ing attention by OOCR over the past three years and these
efforts have begun to show results during this reporting peri-
od. Our investigations     indicate that the techniques     em-
ployed by organized crime figures to siphon money from
these funds involve a variety of criminal activities including
bribery, kickbacks, fraud, and embezzlement.     Their schemes
are complex and well planned and, as the cases below illus-
trate, show the lengths to which a criminal will go when large
sums of money are readily available.
• In April 1983, 10 high ranking labor officials were indicted
  for conspiracy and mail fraud over a 20-year period that
  cost various Teamster welfare funds in the New Jersey area
  hundreds of thousands of dollars. The defendants include
  Leo Marcus, the chief operating official of Welfare Plan
  Administrators,    Inc.; Linda Rubino, an assistant to Leo
  Marcus; Marvin Zalk, the administrator      of various Team-
  ster welfare funds; Jack Dwyer, the president of Local 641
  International   Brotherhood   of Teamsters (IBT); Gerald Ho-
  gan, the former president of Local 660 IBT; Nunzio Proven-
  zano, the former president of Local 560 IBT; Salvatore Pro-
  venzano, current president of Local 560 IBT, president of
  IBT Joint Council 73, and international     vice president of
  the IBT; Andrew Reynolds, former president of Local 84
  IBT and a former business agent of Local 560 IBT; Thomas
  "Happy" Reynolds, a business agent of Local 560 IBT and a
  trustee of the Trucking Employees of North Jersey Welfare
  Fund, Inc.; and Jack Spero, vice president of Local 641 IBT
  and a trustee of the Trucking Employees of North Jersey
  Welfare Fund, Inc., of Local 641 IBT.


                             --105--
   In addition to the substantive mail fraud violations,          the
  conspiracy indictments     involve violations of three Federal
  statutes, including mail fraud, embezzlement          from union
  welfare funds, and bribery of union officials. The intricate
  scheme perpetrated by these individuals involved forger-
  ies and falsifications   of countless documents          which al-
  lowed them to receive expensive dental benefits to which
  they were not entitled. These officials, as well as their rela-
  tives and friends, received free dental treatment which ex-
  ceeded that authorized by the union dental plan, while the
  general members were required to pay for their treatment.
  This "arrangement"     continued for more than twenty years
  during which time Welfare Plan Administrators,            Inc., the
  administrative   services arm of the various locals' dental
  welfare plans, had its service contract renewed by the cor-
  rupt officials who improperly      benefited.    Innocent union
  members' claim forms were systematically falsified and in-
  flated by Welfare Plan Administrators,      Inc., in order to ac-
  complish and conceal the embezzlements from the various
  welfare funds.

  The dentists   who provided the unauthorized      dental serv-
  ices to the    union officials were compensated       for their
  work by Leo    Marcus and Linda Rubino through a complex
  arrangement    which involved falsifying and inflating dental
  claim forms    submitted on behalf of rank and file union
  members.

  Although   more than $160,000 was embezzled from these
  welfare funds during the last five years, the total loss over
  the entire 20-year period    is undoubtedly     many times
  higher.
  On September 27, 1983, Nunzio Provenzano pied guilty to
  receiving kickbacks in exchange for influencing      his deci-
  sions as a Trustee of the plans. The trial for the other nine
  defendants is currently under way and the results will be
  reported in the next semiannual report. U.S.v. Marcus et
  al. (D. N.J.)
• As a follow-up to information   provided in previous semi-
  annual reports, two developments    have occurred in the in-
  vestigation of the Sokol Dental Plan.


                               --106--
  Dr. Joel S. Sokol pied guilty in July 1983, and was sen-
  tenced to six months in prison for conspiracy to commit
  mail fraud by obtaining more than $750,000 financing for
  his dental clinics which serviced various labor unions, in-
  cluding the International    Brotherhood of Teamsters Local
  478, Retail Clerks International     Local 1262, and United
  Auto Workers Union Local 906. With evidence first devel-
  oped by the New Jersey State Commission         of Investiga-
  tions, it was determined that the scheme involved the cre-
  ation of inflated     invoices    for furniture  and dental
  equipment. The higher collateral value of the furniture and
  equipment    was used to induce banks and leasing com-
  panies to provide financing based on the inflated invoices.
  During this same reporting period, Stanley Resnick, Presi-
  dent of Metro Dental Service, Inc., had his April 1982 con-
  viction affirmed by the U.S. District Court of Appeals,
  Third Circuit. The court found no merit in Resnick's ap-
  peals that he had no knowledge of any fraud or that the
  Government failed to prove the value required for convic-
  tion of interstate transportation  of stolen property. From
  1976 until it went bankrupt in 1981, Metro Dental Services,
  Inc., functioned   as the administrative   arm of the closed
  panel dental program operated by Dr. Joel S. Sokol. This
  investigation was jointly conducted by the OOCR and the
  U.S. Postal Inspection Service. U.S.v. Sokol (D. N.J.)
• On May 23, 1983, Marvin Kaplan, former president of Uni-
  versal Consulting Services, Inc., and a consultant to the
  welfare funds of Local 1262 Food and Commercial Work-
  ers, was sentenced for a previous conviction of mail fraud.
  His sentence requires 90 days in Federal prison, three
  years' probation, and a $1,000 fine payable before his re-
  lease from prison.
  Kaplan was hired by Local 1262 to be the collection agent
  for employer contributions  to its welfare fund and to Blue
  Cross/Blue Shield. In this role, he systematically      over-
  charged various Foodtown, Inc., supermarket stores by ap-
  proximately $209,000 by carrying out an unusual scheme.
  The essence of Kaplan's scheme involved the monthly sub-
  mission of a bill to Foodtown,     Inc., for Blue Cross/Blue


                           --107--
  Shield and welfare fund contributions, which was substan-
  tially larger than the amount that was actually due to the
  fund or Blue Cross/Blue Shield.

  Upon receiving payment by Foodtown of this inflated bill,
  Kaplan would remit the correct amounts owed, deduct his
  administrative  fee and place the excess in Universal's cor-
  porate account      as profit.  Kaplan benefited   from this
  scheme because the excess amounts kept in the corporate
  accounts as profits raised the base on which Kaplan's com-
  pensation was figured. Because the corporate profits were
  inflated, Kaplan's split of the corporate profits was also in-
  flated accordingly. Kaplan and his partners split the corpo-
  rate profits equally among themselves. In addition, Kaplan
  received a salary of a predetermined     amount.
  This scheme went undetected from 1974 through 1980 be-
  cause Kaplan intentionally     misled the employers as to
  when various Foodtown stores were required, under the
  contract with Local 1262, to commence making employer
  contributions   to the fund and Blue Cross/Blue Shield. Ac-
  cording to the contract, employers were required to make
  contributions   for full-time employees on the first day of
  the month following the third month of employment.         Em-
  ployers were required to make contributions     for part-time
  employees on the first day of the month following           the
  sixth month of employment.      Instead, Kaplan represented
  to the employers that they were obligated to make contri-
  butions beginning on the day of the third month anniver-
  sary or the sixth month anniversary, respectively. This obli-
  gated the employers to contribute      for the members one
  month prior to the time they were actually obligated to
  make contributions.

  Presently, Marvin Kaplan is appealing his conviction  and
  remains free on a $5,000 personal recognizance bond un-
  der the supervision of the Federal Probation Department.
  U.S. v. Kaplan (D. N.J.)
• As a result of an ongoing       20-month  investigation by
  OOCR, several persons affiliated with the Teamsters Local
  436 Pension and Welfare        Fund have been indicted
  recently.


                             --108--
  David E. Kerr, the administrator   of the Fund, was indicted
  for soliciting and receiving unlawful payments and embez-
  zlement of monies from the Welfare Fund. The September
  1983 indictment     charges that Kerr received more than
  $17,000 from various employers in return for a reduction in
  the amount of money that the employers owed to the Pen-
  sion and Welfare Fund. In addition, Kerr allegedly embez-
  zled approximately    $23,000 of Fund monies while arrang-
  ing for a dedication ceremony of the Fund's new building
  in August 1982.
  In the same case, William and Susan Bauman, owners and
  officers of B & B Wrecking and Excavating, Inc., were in-
  dicted for making unlawful payments to David Kerr and fal-
  sifying reports and statements required by the Employee
  Retirement Income Security Act (ERISA). The Baumans al-
  legedly paid Kerr more than $5,600 over a four-year period
  in order to reduce their delinquencies and/or underreport
  the number of union members working for their company.
  In order to conceal the scheme, the Baumans falsified
  their ERISA reports.
  Finally, Angelo Regalo, a former business agent and trustee
  of Local 436's Pension and Welfare Fund, waived indict-
  ment in September 1983, and an information       has been
  filed against him for accepting payments and "loans" of
  $7,000 from employers for labor peace and nonenforce-
  ment of the Pension and Welfare Fund requirements.       His
  actions illegally saved the employers substantial sums of
  money. U.S. v. Kerr et al. (N.D. Ohio)


Other Significant Cases
In addition to the cases which highligthed violations in the
benefit plans area, there were a number of other cases which
were pursued during this period. These cases point out,
once again, that embezzlement       and extortion,  as well as
other criminal activities, continue to occur in several unions
across the nation.

• An ongoing    investigation of Teamsters Local 507 in Cleve-
  land, Ohio,   which was highlighted   in the last semiannual


                             --109--
  report, resulted in a four-count  indictment against Allen
  Friedman     for embezzlement      of union   funds.   Mr.
  Friedman, a former vice president of Local 507 and the un-
  cle of International  Union President Jackie Presser, was
  charged with embezzling Local 507 monies during a three
  and one-half year period. On September 28, 1983, he was
  convicted on all charges.
  At Friedman's trial, OOCR agents provided testimony con-
  cerning interviews held with Friedman in 1982. Friedman
  told them that in 1976, while he was recuperating from a
  heart attack, he was visited by Jackie Presser and Harold
  Friedman, president     of Local 507 and an International
  Brotherhood    of Teamsters vice-president.  Allen Friedman
  stated that Presser and Harold Friedman told him that he
  was too sick to work and that if he would agree to merge
  his independent,    unaffiliated union Local 752 into Team-
  sters Local 507, they would agree to pay him $1,000 a week
  for the rest of his life. Allen Friedman further told the
  OOCR agents that he agreed to the deal because he was
  being forced out of Teamsters Local 507, and he was too
  sick to continue fighting. Friedman told OOCR agents that
  he agreed to the deal for $1,000 a week. The $1,000 per
  week payments began in 1977 and ended in 1981. The in-
  dictment charged him with illegally receiving $165,000 dur-
  ing this period.
  Friedman is the second person to be convicted in the on-
  going investigation   of "ghost employees"   in Local 507. In
  March 1983, Jack Nardi pied guilty to an information charg-
  ing him with conspiracy to embezzle $109,800 and solicita-
  tion of a bribe relative to his testimony before the grand
  jury.
  Allen Friedman faces a maximum        prison sentence of 20
  years and a fine of $40,000. U.S.v.   Friedman (N.D. Ohio)
e On July 21, 1983, following    a joint OOCR and Labor-
  Management Services Administration     investigation,    a Fed-
  eral grand jury in Shreveport, Louisiana, indicted two offi-
  cials of Local 692 of the Laborers International      Union of
  North America. Jimmy Odom, president and business
  agent, and Cedric Eugene Doyle, sergeant-at-arms           and


                             --110--
  business agent of Laborers Local 692 were indicted for a
  number of offenses including violation of the Hobbs Act
  for interfering with commerce by threats or violence, ac-
  cepting prohibited payoffs from an employer, and falsifica-
  tion of documents required by ERISA.
  The indictment charges that Odom, aided and abetted by
  Doyle, allegedly extorted wages for fictitious services from
  the Allen Edwards Construction    Company by threatening
  work slowdowns,     stoppages, and economic harm unless
  payments were made to him for pipeline construction
  projects in Louisiana during 1979.
  In addition, Odom is further charged with diverting em-
  ployer Contributions which were due to his union's Health
  and Welfare and National Pension Funds. He allegedly ac-
  complished this monetary diversion by instructing his em-
  ployer to delete his name from the contribution     report
  forms sent to the respective Funds and having the contri-
  butions paid directly to him.
  If convicted on all counts, Odom could receive a maxi-
  mum sentence of 62 years in jail and a fine of $80,000.
  Doyle faces a sentence of up to 21 years and a fine of up to
  $30,000. U.S. v. Odom et al. (W.D. Louisiana)
• On June 15, 1983, a Baton Rouge Federal grand jury re-
  turned a five-count    indictment   against Edward Grady
  Partin, former business manager and secretary-treasurer   of
  Teamsters Local 5 in Baton Rouge. Indicted along with
  Partin was Allen L. Jones, a Iongtime Partin lieutenant and
  recording secretary of Local 5.
  The five-count    indictment  charges Partin and Jones with
  conspiracy and embezzlement        of union funds. Between
  1971 and 1980, Partin, as a result of his total domination of
  the affairs of Local 5, was able to secure numerous "em-
  ployment    contracts"   with Local 5. These "employment
  contracts" were for terms of from two to ten years with
  most of the contracts being in violation of provisions of
  the Teamsters International     Constitution,  which provides
  that a local's executive board may not bind the local to a



                            --111--
  service contract for a term that would exceed the life of
  that executive board. Between 1978 and 1980, Partin drew
  $286,000 in salary advances against these contracts. In ad-
  dition to the salary advances, Partin continued to receive
  his regular weekly salary from the Local. During this peri-
  od, Partin is additionally alleged to have used his domina-
  tion and control of the affairs of Local 5 to secure the pay-
  ment by the Local of approximately $160,000 in Federal and
  state income tax liabilities.

  Allen Jones is alleged to have aided Partin in this scheme
  through the securing of Executive Board approval for the
  payments, the making and negotiation of checks, and the
  unauthorized   signing of a union official's name to checks
  destined for Partin. U.S.v. Partin (M.D. Louisiana)

® On September 14, 1983, Edward and Ann Casale, owners
  of Rick Casale Roofing, Inc., and Joseph Enright, former
  business agent of Local 30 of the Roofer's Union were in-
  dicted for conspiracy, mail fraud, and filing fictitious quar-
  terly withholding   reports. Enright, who is currently associ-
  ated with the Painter's Union, is a former associate of
  deceased Roofer's President John McCullough           who was
  killed as part of the power play that took place within the
  Philadelphia organized crime family in recent years.
  The indictment    focuses on a scheme carried out by the
  Casales and Joseph Enright, along with two unindicted
  coconspirators,  to falsely represent to the Camden Coun-
  ty, New Jersey, work-release program that the two cocon-
  spirators were employed by the Casales' company. The
  purpose of the deception was to allow the two, who had
  been convicted of narcotics and gambling offenses, to be
  admitted into the work-release program in lieu of serving a
  prison sentence.
  The indictment charges that, under this ruse, the prisoners
  would leave the work-release program daily and travel to a
  rented house where they would change into good clothes
  and spend the day conducting their drug business. At no
  time did either prisoner do any work for the Casales' com-
  pany. In exchange for this arrangement,      the prisoners
  would pay Casale $1,000 a week and would receive compa-


                             --112--
  ny paychecks which were turned into the work-release
  program as proof of their employment.         It was necessary
  for Casale to falsify entries in his payroll ledgers and to
  make union contributions      to cover up the fact that the
  prisoners were not working for the company. Casale also
  submitted false monthly reports to Roofer's Local 30 in or-
  der to cover up the conspiracy. These monthly reports
  were for union dues and benefit contributions.      A trial date
  for this case is still pending. This investigation    was con-
  ducted by agents from OOCR, the Drug Enforcement Ad-
  ministration,  the Internal Revenue Service, and the U.S.
  Postal Service. U.S. v. Casale et al. (D. N.J.)
• A former president of the International Longshoremen As-
  sociation (ILA) Local 1759 in Tampa was charged with em-
  bezzlement of union funds following     a joint OOCR and
  FBI investigation. Robert Peeples was accused of stealing
  several thousand dollars by issuing checks for phoney un-
  ion expenses. The expenses were never approved, as re-
  quired, by the union's executive committee. The checks,
  which required the signatures of Peeples and the financial
  secretary, were cashed and the money was converted to
  his own personal use.
  On September 13, 1983, Peeples pied guilty to one count
  of embezzlement     as part of a plea agreement and received
  a three-year suspended sentence. He was placed on pro-
  bation and is required to make restitution. U.S.v. Peeples
  (M.D. Florida)


              Significant Court Decisions
Several Court of Appeals' decisions were        recently handed
down concerning cases which we originally       investigated and
highlighted in previous reports.

• During this reporting period, the Court of Appeals for the
  Sixth Circuit upheld the convictions of James (Jack) Russo,
  part owner of a steel hauling business, Roby Smith, busi-
  ness agent of Teamsters Local 299 in Detroit, and Vincent
  Meli, a labor negotiator for the J & J Cartage Co., steel
  hauling firm.


                             --113--
  They were originally convicted in August 1979, for extor-
  tion and conspiracy   because they coerced drivers into
  signing an agreement to approve improper paycheck de-
  ductions. The other part owner of J & J Cartage Co., Jo-
  seph D. Cusmano, was previously convicted in a separate
  trial and remains on appeal.
  The J & J Cartage Co., was operating under the Teamsters
  National Master Freight Agreement which requires that the
  employer pay contributions    for health insurance and pen-
  sion coverage. By threats of reduced income, loss of job,
  and loss of their trucks, which were frequently   held in the
  company's name while being purchased by the drivers, the
  defendants forced the employees to pay their own contri-
  butions to the health and welfare and pension funds in de-
  fiance of the union contract.

  Of the four issues addressed by the Court, its treatment of
  the appellant's contention that there was no crime based
  upon the decision in U.S.v. Enmons is most significant. In
  1973, the Supreme Court found in Enmons that the Hobbs
  Act does not apply to the actual or threatened use of vio-
  lence directed at the obtaining of legitimate labor objec-
  tives or economic benefits that can otherwise be lawfully
  obtained by collective bargaining. This case is significant in
  that it applied the Hobbs Act to employers who forced
  their employees to agree to a reduction in wages outside
  the collective bargaining agreement. The Court refused to
  accept the defendants' arguments that the Enmons deci-
  sion, which carved out an exception to the Hobbs Act for
  wrongful acts committed in pursuit of legitimate labor ob-
  jectives, applied to them. Instead, the Court held that the
  company "had no legitimate claim" to the contributions
  from the drivers because the collective bargaining agree-
  ment expressly required the company to make the pay-
  ments to the welfare and pension funds out of the compa-
  ny's own resources. U.S. v. Russo, Meli, and Smith (6th
  Cir) Nos. 80-5052, 80-5054, and 80-5055, May 1983
® In an opinion by the Sixth Circuit Court of Appeals that
  will permit the pursuit of other employers engaged in simi-
  lar illegal conduct, the convictions of the S & Vee Cartage


                            --114--
Co., Inc., Silverio Vitello, and Anna Vitello were upheld on
April 14, 1983. The corporation and the Vitellos were con-
victed in November 1981 for planning and carrying out a
scheme by which they failed to make contributions        to the
Michigan Conference of Teamsters Welfare Fund and the
Teamsters Central States Pension Fund. The scheme also
deprived S & Vee Cartage Company employees of their
health and welfare coverage and pension credits. The con-
victions of the firm and its owners resulted from false
statements, mail fraud, and conspiracy. From 1977 through
1979, the Vitellos attempted to increase the profitability    of
the company by regularly submitting false employer con-
tribution   reports, which understated the company's pay-
ments due to the welfare and pension funds. The scheme
netted approximately $63,000 for the company in addition-
al profits.

The Vitellos contended,   in their appeal, that they, as em-
ployers, were not covered under the section of ERISA for
which they were convicted because Congress intended it
to cover only fiduciaries of employee welfare and pension
funds. They also argued that the forms and reports sub-
mitted by them to the funds are not the types of docu-
ments referred to in the statute.

The Court of Appeals was unimpressed with the arguments
of the appellants. The Court found that the statute pro-
vides in broad language that "whoever"   knowingly makes
false statements or conceals facts in documents required
by FRISA may be held criminally culpable. No differentia-
tion is made between an employer or a fiduciary of an em-
ployee benefit or welfare fund.
In terms of the types of documents that were submitted,
the Court rejected the argument that the documents con-
taining the false statements are not covered by the statute.
The evidence showed that the documents constitute the
primary source, if not the sole source, available to trustees
of pension and welfare funds of the names of the employ-
ees covered and the amount of contributions      made by em-
ployers. This case is significant since it marks the first time



                           --115--
  that an Appeals Court has ruled that the records retention
  requirements of ERISA apply to employers.
  The Vitellos are presently free on bond pending their
  deadline for filing a petition for certiorari. U.S.v. S & Vee
  Cartage Co., Inc., 704 F.2d 914 (6th Cir.).
• Francis "Frank" Sheeran, former president of International
  Brotherhood    of Teamsters Local 326 of Wilmington,   Dela-
  ware, was originally sentenced in December 1981, after be-
  ing convicted on charges including violating the Racketeer
  Influenced   and Corrupt    Organizations   (RICO) statute,
  RICO conspiracy, and mail fraud.
  The investigation   showed that Sheeran, in his position as
  president of Local 326, conspired with Eugene Boffa and
  his associates in a nationwide labor leasing operation that
  circumvented     union members' wage and grievance de-
  mands. Sheeran received an undetermined     amount of cash
  and free use of a luxury automobile    in exchange for not
  causing labor problems for the labor leasing business run
  by Eugene Boffa.
 The mail fraud violations, charged against Sheeran, were
 premised by the fact that Teamsters employees, through
 fraudulent use of the mails, were deprived of the loyal and
 faithful service of their union official, economic benefits
 guaranteed by the National Labor Relations Act (NLRA),
 and economic     benefits enjoyed through     collective bar-
 gaining agreements.
 The Third Circuit Court of Appeals concluded      that the
 NLRA is strictly civil in nature. Therefore, the mail fraud
 statute should not have been used in addressing violations
 of the NLRA.

 Those mail fraud charges relating to the NLRA were re-
 versed and remanded for a new trial. Based upon the re-
 versal of a portion of the conviction, the Circuit Court in-
 structed that Sheeran be resentenced.

 On June 1, 1983, the judge resentenced Sheeran to 18
 years in jail, fined him $20,000 and reaffirmed the forfeit-
 ure order of his union office as president of Local 326.


                            --116--
Sheeran was ordered to surrender        himself to the Sand-
stone Federal Correctional Institute   on June 3, 1983. U.S.
v. Sheeran (D. Delaware)




                         --117--
                  PART III
            COOPERATIVE EFFORTS
During this reporting period, we have       continued active par-
ticipation on the President's Council       on Integrity and Effi-
ciency (PCIE). While this has involved      a substantial commit-
ment of resources, we believe that          this involvement  has
enhanced    the effectiveness    of this      office  and the IG
community.
Our PCIE participation     is multifaceted. We have various roles
in a number of PCIE        committees,     are actively involved in
projects sponsored by      the PCIE and have detailed a number
of staff members      to    help implement      a variety   of PCIE
initiatives.

Probably our largest PCIE investment is in the area of com-
puter matching. As cochair of the PCIE Long Term Computer
Matching     Project with HHS Inspector       General Richard
Kusserow, Inspector General J. Brian Hyland and OIG staff
have provided substantial support to this project. Efforts by
DOL under the Computer Matching Project have included
facilitating matching efforts involving departmental programs
for various PCIE projects.
We have also continued      publishing Computer Matching, a
quarterly  newsletter with almost one thousand recipients
throughout   Federal, state and local agencies. A final report
on incentives and disincentives to computer matching is ex-
pected to be issued during October 1983; an update of the
Federal agency portion of the Computer Matching inventory,
which will focus on "front-end"        prevention techniques,
should be completed by the end of the calendar year.
DOL IG staff also led the effort to develop standardized data
extraction formats for computer     matching, a project under
the aegis of the HHS IG. HHS is proceeding        on the field
testing of these formats by providing funding for tests in se-
lected states across the country, and DOL staff are playing a
key role.

                              --119--
Other PCIE projects in which we have participated     are briefly
discussed below.

Review of Cash Management       through Letters of Credit
This project, led by Treasury's Inspector General, seeks to
evaluate problems with letters of credit funding and recom-
mend alternatives that will reduce borrowing    costs. Partici-
pants include Commerce, HHS, Treasury, Agriculture,    Educa-
tion, HUD and Labor. This project is more fully described in
the Departmental Management section of this report.
On September 29, our report was submitted to Treasury and
to ESA, MSHA and OSHA. Additional project work, in which
we will participate, will examine current collection practices
and assess agency cash management plans required by OMB
Bulletin 83-6. Completion   of this PCIE project is pending the
outcome of a six-month pilot test project with various states,
which is being administered by Treasury's Bureau of Govern-
ment Financial Operations.
Federal Employees Receiving Government Assistance
This project, led by the Veterans Administration       Inspector
General, seeks to identify, through computer matching, cur-
rent and former     Federal employees    improperly    receiving
Government    financial assistance. Participating agencies in-
clude Defense, VA, OPM, HHS, Agriculture        and Labor.
We have participated    in a variety of matches involving La-
bor's FECA and Black Lung programs. Compensation          and
medical payments made by these programs were compared
with similar data from the:

• Tennessee Valley Authority--FECA    beneficiaries    and TVA
  active and retired employees;
• United Mine Workers       Health and Retirement       Funds--
  Black Lung and UMW Medical payments; and
• Office of Personnel   Management--Retired     annuitants   and
  FECA recipients.
These computer matching efforts should result in millions of
dollars in recoveries for the programs involved and, more
importantly, will enable us to identify major interagency con-


                            --120--
trol deficiencies,   which   we will work with the programs   to
correct.

On September 16, VA submitted the consolidated      report to
the PCIE. Additional discussion of the FECA/OPM crossmatch
is contained in the Employment      Standards Administration
section of the report.
Federal Property at Contractors and Grantees
This project, led by the Department of Defense, was con-
ducted to evaluate controls over property held by Federal
contractors and grantees. As part of the effort, five Job Corps
Centers were reviewed. Findings include: inadequate inter-
nal controls; 11 percent of a sample of Job Corps Center pur-
chases were not needed         for the program;      inaccurate
recordkeeping;   and property reviews were inadequate or not
performed. In September, Defense submitted a summary re-
port to the PCIE; policy recommendations        are now being
considered.

In addition to these projects, OIG staff are involved in a
number of PCIE Committees.      Inspector General Hyland's re-
cent nomination    to cochair the PCIE Computer Audit Com-
mittee, with NASA Inspector General June Brown, coincides
with our increased emphasis in the computer audit and con-
trol area. We are currently providing one staff member on a
full-time detail to support the Committee. Also, this Office
participates on the PCIE Performance Evaluation Committee
work group, the Prevention       Committee   and the Training
Committee's Executive Development       Subcommittee.




                              --121--
                        PART IV
           MONEY OWED TO THE
          DEPARTMENT OF LABOR
In accordance with a request in the Senate Committee on
Appropriations'  report on the Supplemental    Appropriation
and Rescission Bill of 1980, the chart on the following   page
shows unaudited estimates provided by the Agencies of the
Department of the amounts of money owed, overdue, and
written off as uncollectible during this six-month reporting
period.




                           --123--
          Summary of Estimated Department of
                  ILabor Receivables
                             (Dollars in thousands)

                                 Outstanding       Delin-       Adjustments &
Program                          Receivables 1    quencies 2     Write-Offs 3
Name                               9130183         9130183          FY 1983

Employment Standards
Administration
Federal Employees
Compensation Act
• overpayments to
  beneficiaries/
  providers                        $ 18,030       $ 12,188         $        577
Black Lung Program
  Responsible Mine
  Operator
  reimbursement     &
  overpayments
  to beneficiaries/
  providers                         154,426            31,068               183
Employment & Training
Administration
o disallowed costs from
  auditing or monitoring
  outstanding cash
  balances after contract
  termination;  erroneous
  overpayments to grantees          231,037           201,569          9,437
Mine Safety & Health
Administration
o civil penalties
  from mine operators                 6,716             6,658               817
Occupational Safety &
Health Administration
  civil penalties
  from businesses                     9,802             9,802          1,064
Pension Benefit
Guaranty Corporation
o terminated plan assets
  subject to transfer
  employer liability, and
  accrued premium income            146,779            8,053           --
All other Agencies                    1,000              400           --

Totals                             $567,790       $269,738         $12,078


                                  --124--
1Includes amounts identified as contingent receivables that are subject to an
appeals process that can eliminate or reduce the amounts identified.

2Any amount more than 30 days overdue      is delinquent.   Includes   items un-
der appeal and not in collection mode.

3Includes write-offs of uncollectible receivables and adjustments      of contin-
gent receivables as a result of the appeals process.




                                 --125--
APPENDIX




  --127--
                                  Selected Statistics

Audit Activities
•   Reports issued on DOL activities .. ...................                                                   342
    Audit exceptions  ...................................                                             $95,208,139
•   Reports issued for other Federal agencies                                  ............                     8
•   Dollars resolved ....................................                                             $90,988,561
    Allowed ............................................                                              $67,195,713
    Disallowed    .........................................                                           $23,792,848


Fraud Rnvestigation Activities
•   Cases opened   ......................................                                                    356
•   Cases closed .......................................                                                     305
•   Cases referred for prosecution                        ......................                             140
•   Individuals or entities indicated                     ......................                             171
•   Individuals     or entities convicted                    .....................                           106
•   Cases referred to DOL Agencies for
    administrative action ................................                                                    49
•   Employees terminated                  ..............................                                       4
•   Employees suspended       ..............................                                                   6
•   Fines and penalties .................................                                                $39,050
•   Settlements      and judgments                ..........................                            $198,134
•   Restitutions      .....................................                                   ....     • $579,337



Organized Crime and Racketeering                                                                Investiga-
tion Activities
•   Cases opened      ......................................                                                  28
•   Cases referred to DO J/others ........................                                                    21
•   Individuals indicted        .................................                                             46
•   Individuals     convicted            ...............................                                      19




                                                     --129--
                  Audit Resolution               Activity
                      April   1-September       30, 1983


                                 April 1, 1983                   Issued
                              Balance Uresolved               (Increases)
Agency/Program                 Reports      Dollars 1      Reports Dollars


Employment and Training
 Administration
JTPAGrantees                     --             --          58          --
CETA Sponsors
  Prime Sponsors                139         $50,078,591    166      $61,732,491
  Native Americans                1              94,067     14        1,821,134
  Migrants                       16           2,032,751      4          932,377
  Job Corps                       7           7,178,003      4          324,855
  Older Workers                   5             127,621      2            4,311
  Policy, Evaluation &
    Research                       1             55,810        4         40,969
  Technical Assistance             1             79,240     --          --
  Other National Pgms             21          2,253,514      14       3,251,292
State Employment
  Security Agencies                   8       4,233,296     14      23,060,004

Employment Standards
 Administration                   3            215,412        3         --

Occupational Safety &
  Health Adminis-               14             970,530      30        1,069,345
  tration

Mine    Safety & Health
  Administration                  1             39,331      10          720,478

Office of the Asst Secy
  for Admin and                   3             48,813      19         829,948
  Mgmt

Total                     2    220          $67,406,979    342      $93,787,204




                                  --130--
              Resolved                                September      30, 1983
             (Decreases)    3                         Ba0ance     Unresolved
Reports        Allowed          Disallowed           Reports         Dollars




    58               ....




  200           $52,529,575        $18,118,324         105             $41,163,183
    7                     68            94,067           8               1,821,066
   15               675,707          1,207,999           5               1,081,422
    7             7,035,477             49,381           4                 418,000
    6                33,863             92,681           1                   5,388

      4              43,885              11,925          1                  40,969
   --               --                  --               1                  79,240
    22              349,235          1,783,755          13               3,371,816


   13             5,421,016          2,146,171           9             19,726,113



         5             71,092          144,320            1                --



    31              996,932            134,275          13                 908,668




         5           --                 --               6                 759,809



    14                 38,863                9,950        8                829,948



   387          $67,195,713        $23,792,848          175            $70,205,622




                                   --131--
1"Dollars" signifies both questioned costs (costs that are inadequately docu-
mented or that require the grant officer's interpretation    regarding allowa-
bility) and costs recommended     for disallowance (costs that are in violation
of law or regulatory requirements).
2The differences between the beginning balances in this schedule and the
ending balances in the schedule of the previous semiannual report result
from adjustments required during the reporting period.
3Audit resolution occurs when a final determination      for each audit finding
has been issued by the grant officer and accepted by the Office of Inspector
General. Thus, this table does not include activity subsequent to the final
determination    such as the appeals process, the results of the program agen-
cy debt collection efforts, or revision to prior determinations.




                                 --132--
--134--
_135--
                 Summary of Audi_ Reports Issued
                            April        1-September                       30, 1983



Department                of Labor
   Employment          and Training    Administration
    Job Training      Partnership Act Grantees ...................                             58
     CETA Sponsors:          .......................................                         208
       State and Local Prime Sponsors            ......................                      (166)
       Native American Grantees        ...........................                           ((14)
       Migrant and Seasonal Farmworkers Grantees                         ..........          ( 4)
       Job Corps Contractors   ...............................                               ( 4)
       National Programs for Older Workers Grantees ........                                 ( 2)
       Policy, Evaluation and Research Grantees                    .............             ( 4)
       Other National Programs Grantees                ...................                   (14)
    State Employment           Security Agencies                      ....................    13
     Internal    Audits    ........................................                             1


   Mine Safety and Health             Administration
    MSHA Sponsors .......................................                                     10

   Office       of Assistant        Secretary              for
    Administration   nd Management
    OASAM Contractors   ...................................                                   14
     Internal Audits       ........................................                            5


   Occupational  Safety and Health                       Administration
    OSHA Sponsors .......................................                                     30

   Employment      Standards            Administration
    Internal Audits ........................................                                   3


Other Federal A_encies
               (Z7
                       ........................                                                2

Total ...................................................                                    344




                                                --136--
--137--
 ,,, "r<<<<<<
 "-                     ,-,-,_._:_
        -'r "r""r""r "r :_
      000000         _-_-_-_-        _m_   --__


.m




                     --138--
          C/'_ la'_   U") I,/_
      _   00.000.0.00            _-,_   ,, _--_- ,_
II.

"e




                      --139--
                                                          ___.U




                 o_
                      s_u               _,
                                                      °
                                                    _ _ >.>.>.
                           _ _,,_ _ Z                     _




                      mm                     ('¢3




.E



     I--,




            0
            •_                                            >>>


                            --140--
             <<    <<       < _==.
     __
     __      O0    00       0   _____   _._     _,_




 @
"_   >>>>>   >>    >>       >   >>>>>>>>>>>>>
 @



                  --141 "
                         <

                  --

      _        _         _2_ _2 o

                                 _z__
               u_            _      =_o        o<



•==   YYYY.                       VVVVVVYVY
  Z   _                           ___



      $$$$._$_$$$$$$_$$$_$




                                        _o_o   oo




 "_   >>>>>>>>>>>>>>>>>>>>




                  --142--
_                _
,',,.,,-,-,.,,',,-,,.,,.,,-,   < __.z
                             .,_ <<<<<<   o._ 0


_>>>>>Z>>>              _,   >_>>>>       >   >



             --143--
 C                                               Z




_            o                                   o
_    _                                           u
     @z_                                         o
                   z                 <   _   _0
-o _8 _            _       _ 8 888_          _
                   ZoSOU         _
Z
     _2
             - _             __          8 8 _8_ _o


         V                                   TTTTT



     _       _8_888_8_88888_88888




°_




                       --144--
 ._                                    <<
       < _       <_<<<_<<<<<_<<<_<_<_<<
                                      _"-"-


°_

 I:_   >   >>>   >>>>>>>>>>>>>>>>      >>




                     --145--
0000   _____



>>>>   >>>>>>>>>>>>>>>>>>>>




               --146--
 0
Ol




     --147--
             z




                              z_
             _                _>           0
                  Z           _0
                                   _       z     2
                                         0_      _   _
     --      _ _              =_=                    zO
                                                     _z
                      -            _                 _0

                          _                _         _Z

Z    _       _    DDDD_D_DDDD




         _        _?                   _' _ '_        ''




"_   >>>>    x    ×xx×xx×xx×xx                       xx



                 --148--
     C



                    Z              Z

                                   0



    -@                  _          o_

     o     _        £ 8_< _ _

    z      __8            8 _R         gB_e=_ _
         I__                     __        _


               _44           4 _       _       '_

E


;<


     _   _i____I_                              <<




         XXX_XXXXXXX_X_X_XX_X_                 _X




                        --149_
                                                                      Z
                            0      0




                <o         z_                              _ _
           --               _OZ        _                   U




      )0                    <_0




        oo             o    _$$$           $   _           k



                                               I   I   I   I   ZZZZ

      ZZZZZZZZZZZZZZ                           mm,_m           _D_D{D_D
 ,- _Gr_c_m_c_r_c_                             0000            _E
{I,,



•-_   O00000000000OO                           0000            0000
      ZZZZZZZZZZZZZZ                           ZZZZ            ZZZZ




                       --150--
__         _ ___       _ _<<<<
__
__         £
           Z <<<<<<<<<
             000000000 <<
                       O0 <<_
                          0000


00000000   0   000000000   O0   0000
ZZZZZZZZ   Z   ZZZZZZZZZ   ZZ   ZZZZ



           --151--
      z_       _
               z_         _zz_   _  _ _ <
000   00000000000000             O0 O0


000   00000000000000             O0   O0   0   0
ZZZ   ZZZZZZZZZZZZZZ             ZZ   ZZ   Z   Z




                --152--
     c
     0
     U

     "8        O0


     z         _o
                    <
               _m




               mm




-E




          o_




     _     g



     •_        >>

                        --153--
           DEP_,RT_ENT OF L_BOR
                O0GHOTL_NE
         357-0227 (Washington        Dialing Area)

(800) 424-5409 (Toll Free--outside      Washington   Area)

The OIG Hotline is open 24 hours a day, 7 days a
week to receive allegations of fraud, waste, and
abuse. An operator is normally on duty on work-
days between 8:15 AM and 4:45 PLY1,Eastern Time.
An answering machine handles calls at other times.
Federal employees may reach the Hotline through
FTS. The toll-free number is available for those
residing outside the Washington        Dialing Area who
wish to report these allegations.      Written com-
plaints may be sent to:

              Hotline
              PO Box 1792
              Washington, D.C. 20013
___--__=_
     _o o_




_       -b_ _

°       ogg




    m-
    --    bo   09




    N


         _2
         g_
